<html>
<title> - MISMANAGEMENT, MISSTEPS, AND MISSED BENCHMARKS: WHY THE VIRTUAL FENCE HAS NOT BECOME A REALITY PART I and II</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
 MISMANAGEMENT, MISSTEPS, AND MISSED BENCHMARKS: WHY THE VIRTUAL FENCE 
                        HAS NOT BECOME A REALITY
                             PART I and II

=======================================================================


                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

               SEPTEMBER 10, 2008 and SEPTEMBER 18, 2008

                               __________

                           Serial No. 110-136

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
47-668                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

                    I. Lanier Lavant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement, September 10, 2008.............................     1
  Oral Statement, September 18, 2008.............................    45
  Prepared Statement, September 10, 2008.........................     2
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
The Honorable Ginny Brown-Waite, a Representative in Congress 
  From the State of Florida:
  Prepared Statement.............................................     4

                               Witnesses

Mr. W. Ralph Basham, Commissioner, Customs and Border Protection, 
  Department of Homeland Security, Accompanied by Mr. Jayson P. 
  Ahern, Deputy Commissioner, Customs and Border Protection, 
  Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement, September 10, 2008.........................     7
Mr. Richard M. Stana, Director, Homeland Security and Justice 
  Issues, Government Accountability Office:
  Oral Statement.................................................     9
  Prepared Statement, September 10, 2008.........................    11
Mr. Randolph C. Hite, Director, Information Technology 
  Architecture and System Issues:
  Oral Statement.................................................    24
  Prepared Statement, September 10, 2008.........................    25

                             For the Record

Mr. W. Ralph Basham, Commissioner, Customs and Border Protection, 
  Department of Homeland Security:
  Letter, Submitted by the Honorable Charles W. Dent.............    49

                                Appendix

Questions From Chairman Bennie G. Thompson.......................    75


 MISMANAGEMENT, MISSTEPS, AND MISSED BENCHMARKS: WHY THE VIRTUAL FENCE 
                        HAS NOT BECOME A REALITY



                                 PART I

                              ----------                              


                     Wednesday, September 10, 2008

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Sanchez, Christensen, 
Etheridge, Cuellar, Pascrell, King, McCaul, and Dent.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony on 
``Mismanagement, Missteps, and Missed Benchmarks: Why the 
Virtual Fence Has Not Become a Reality.''
    Someone just had a phone ring. According to committee 
rules, you can either put it on vibrate or cut it off. Thank 
you.
    Before I begin, I would like to acknowledge that tomorrow 
is the seventh anniversary of the September 11 attacks. The 
3,000 people who lost their lives that Tuesday morning were 
hardworking Americans with families, friends and neighbors, 
just like the rest of us. They were going about their day with 
no idea of the terror that was to come. On behalf of the 
committee, I would like to extend our heartfelt condolences.
    As we reflect, let us not forget the heroism and bravery of 
our first responders. The event of 9/11 forever changed our 
country. But we are a people resolved to live without fear. 
That is why this committee works so hard to ensure that our 
Government is doing everything it can to secure the Nation.
    Today marks the fourth time in the 110th Congress that this 
committee has held a hearing specifically to examine the 
Department of Homeland Security's efforts to build a virtual 
fence across the Southwest border. I would especially like to 
thank the Border, Maritime, and Global Counterterrorism 
Subcommittee Chairwoman, Loretta Sanchez, and Management, 
Investigations, and Oversight Chairman, Chris Carney, for their 
work on this important issue.
    Of course, using technology to secure our borders is not a 
new concept. Over the last 10 years, we have seen two other 
border technology programs--the Integrated Surveillance 
Intelligence System, ISIS, and American Shield Initiative, 
ASI--come and go with few tangible results.
    The third time, as they say, was supposed to be a charm. 
Two years ago this month, the Department of Homeland Security 
awarded the SBInet contract to Boeing. At that time, we were 
told that SBInet technology would be deployed along the 
Southwest border in Tucson, El Paso, and Yuma by the end of 
2008 to help the Border Patrol gain operational control of the 
Southwest border. We were also told that things would be 
different this time because the project would utilize off-the-
shelf technology.
    Since that time, the Department has awarded $933.3 million 
in task orders for deployment of SBInet technology and 
infrastructure to its contractor, Boeing. Regrettably, the 
partnership between DHS and Boeing has produced more missed 
deadlines and excuses than results. The Department and Boeing 
have failed to deploy operational SBInet technology anywhere 
along the border other than the so-called prototype known as 
Project 28. Now we are being told that the SBInet program is 
essentially on hold until next year. It will become the 44th 
President's problem.
    I look forward to GAO's testimony today, as I understand it 
will outline management deficiencies and other problems that 
GAO and this committee cautioned DHS about from the start. I am 
convinced that DHS and Boeing grossly underestimated the task 
of standing up SBInet. That is simply unacceptable, given the 
millions of dollars Congress has provided for SBInet and the 
opportunity DHS has had to learn from previous mistakes. 
Instead of the third time being a charm, this administration 
may have just struck out.
    DHS should reevaluate Boeing's performance and continue to 
look to the innovation of this great country for border 
security technology. Now is not the time to give up. DHS must 
turn the page and heed the guidance from this committee and the 
able staff at GAO and chart a new path for the use of 
technology at the border. It begins with DHS improving its own 
performance and implementing a better-planned border security 
technology system. The stakes are simply too high to continue 
to fail to get it right.
    The Chair now recognizes the Ranking Member of the full 
committee, the gentleman from New York, Mr. King, for an 
opening statement.
    [The statement of Chairman follows:]
           Prepared Statement of Chairman Bennie G. Thompson
    Before I begin, I would like to acknowledge that tomorrow is the 
seventh anniversary of the September 11 attacks.
    The 3,000 people who lost their lives that Tuesday morning were 
hard-working Americans with families, friends, and neighbors just like 
the rest of us. They were going about their day with no idea of the 
terror that was to come.
    On behalf of the committee, I would like to extend our heartfelt 
condolences.
    As we reflect, let us not forget the heroism and bravery of our 
first responders.
    The events of 9/11 forever changed our country, but we are a people 
resolved to live without fear.
    That is why this committee works so hard to ensure that our 
Government is doing everything it can to secure the Nation.
    Today marks the fourth time in the 110th Congress that this 
committee has held a hearing specifically to examine the Department of 
Homeland Security's efforts to build a virtual fence across the 
southwest border.
    I would especially like to thank Border, Maritime, and Global 
Counterterrorism Subcommittee Chairwoman Loretta Sanchez and 
Management, Investigations, and Oversight Subcommittee Chairman 
Christopher Carney for their work on this important issue.
    Of course, using technology to secure our borders is not a new 
concept.
    Over the last ten years, we have seen two other border technology 
programs--the Integrated Surveillance Intelligence System (ISIS) and 
the American Shield Initiative (ASI)--come and go with few tangible 
results.
    The third time, as they say, was supposed to be a charm.
    Two years ago this month, the Department of Homeland Security 
awarded the SBInet contract to Boeing.
    At that time, we were told that SBInet technology would be deployed 
along the southwest border in Tucson, El Paso, and Yuma by the end of 
2008, to help the Border Patrol gain operational control of the 
southwest border.
    We were also told that things would be different this time because 
the project would utilize ``off-the-shelf'' technology.
    Since that time, the Department has awarded $933.3 million in task 
orders for deployment of SBInet technology and infrastructure to its 
contractor, Boeing.
    Regrettably, the partnership between DHS and Boeing has produced 
more missed deadlines and excuses than results.
    The Department and Boeing have failed to deploy operational SBInet 
technology anywhere along the border, other than the so-called 
``prototype'' known as Project 28.
    And now, we are being told that the SBInet program is essentially 
on hold until next year.
    It will become the 44th President's problem.
    I look forward to GAO's testimony today, as I understand it will 
outline management deficiencies and other problems that GAO and this 
committee cautioned DHS about from the start.
    I am convinced that DHS and Boeing grossly underestimated the task 
of standing up SBInet.
    That is simply unacceptable given the millions of dollars Congress 
has provided for SBInet and the opportunity DHS had to learn from 
previous mistakes.
    Instead of the third time being a charm, the administration may 
have just struck out.
    DHS should reevaluate Boeing's performance and continue to look to 
the innovation of this great country for border security technology.
    Now is not the time to give up.
    DHS must turn the page and heed the guidance from this committee 
and the able staff at GAO, and chart a new path for the use of 
technology at the border.
    It begins with DHS improving its own performance and implementing a 
better-planned border security technology system.
    The stakes are simply too high to continue to fail to get it right.

    Mr. King. Thank you Mr. Thompson. Let me thank the 
witnesses for being here today, and let me also join with 
Chairman Thompson in commemorating what will tomorrow be the 
seventh anniversary of September 11. It was a shattering attack 
upon the entire country.
    In my own district, almost 150 people were killed, so this 
is something that will stay with us forever. I want to, 
obviously, think of the families who lost family members that 
day. I want to commend the first responders who gave their 
lives and performed so heroically. Also I think it is 
appropriate, considering the fact we have not been attacked in 
the last 7 years, to thank the employees of the Department of 
Homeland Security, especially in view of today's hearing, 
Customs and Border Protection, for the job that they have done 
in securing our country.
    It is not an accident that we haven't been attacked in 7 
years. It is for a number of reasons, including far-reaching 
policies, and also the dedicated efforts of the men and women 
of the Department of Homeland Security.
    As far as the hearing today, obviously it is an important 
hearing. These are issues that have to be addressed. I think 
this is the 15th hearing held by this committee during this 
Congress looking at departmental efforts to secure the border 
and ports of entry. However, I have to note that the committee 
has yet to move on even one bill to harden our borders, even 
though more than 40 border security bills have been introduced.
    Also, I think the committee would have a lot more influence 
on what has been happening and a lot more to say if we had 
authorized legislation, if we had authorization legislation on 
SBI, if we had an authorization bill for the Department of 
Homeland Security. Also, we would be able to give a more 
coherent message if there was one committee that the Department 
had to report to rather than 84 committees and subcommittees.
    Also, I'm really--to me, it is very unsettling news to 
realize that as we approach the seventh anniversary of 
September 11 that it appears that the Democratic leadership 
will not even pass an appropriations bill this year for 
homeland security. So while you are going to be sitting here 
today listening to abuse about what hasn't been done, I think a 
lot of people should be pointing fingers at themselves as far 
as what hasn't been done from this end as far as getting their 
job done.
    Now, having said that, more has to be done for the border, 
more has to be done with SBInet, virtual fence, real fence, all 
of which address a very, very real concern of the American 
people that we have to show we can secure our borders.
    I realize there has been a lot of progress made at the 
border. I realize that the men and women who are asked to do 
the job are doing their job. There have been real technology 
issues, there have been real progress issues here, and that is 
what we have to address and try to do it in a bipartisan way. 
But it is important to note that we will have a 130 percent 
increase in the amount of border fencing since this law was 
enacted.
    These are real steps forward, but more has to be done. So 
it is in that context and that tone that I look forward to your 
testimony today; and I yield back.
    Chairman Thompson. Other Members of the committee are 
reminded that under committee rules, opening statements may be 
submitted for the record.
    [The statement of Hon. Brown-Waite follows:]
           Prepared Statement of Honorable Ginny Brown-Waite
                           September 10, 2008
     Chairman Thompson and Ranking Member King, thank you for holding 
this hearing today.
    As we all agree, border security is a matter of national security. 
As such, this institution would truly be failing in its 
responsibilities if it failed to fund border security in a timely and 
comprehensive way. It would also fail by neglecting to take a close 
look at how the money Congress appropriates is being spent. I applaud 
CBP's efforts in utilizing innovative technology to achieve this 
mission, but I have serious concerns about the delays and lack of 
functionality that have plagued SBInet since its inception.
    Some of the problems CBP has had with the digital fence could have 
been avoided. When I hear that CBP did not consult with the Department 
of Defense, despite the fact that DOD has had extensive experience 
using this technology, I have to wonder whether the last 2 years could 
have yielded more results. That is, of course, why we have oversight 
hearings. On that point, I would like to recognize the committee for 
holding what will be our fifteenth hearing on border security this 
Congress. I truly hoped that holding fifteen hearings would have 
resulted in at least one piece of meaningful legislation but 
unfortunately, this does not appear to be the case.
    Finally, I would like to take this opportunity to highlight the 
importance of the appropriations process. The physical fence needs 
additional resources. Operation Jump Start has ended and more personnel 
are clearly needed along the border. This committee cannot ignore the 
need that exists any longer. Congress must appropriate the necessary 
funds so that the Department of Homeland Security can secure our 
borders and detain those that have entered our country illegally.
    In closing, I would like to thank the witnesses for being here 
today, and I look forward to your testimony.

    Chairman Thompson. We have a memorial service planned for 
former Congresswoman Stephanie Tubbs Jones at 11, and so I will 
dispense with the introduction of our witnesses and move 
forward into that and try to get as much accomplished as 
possible. Our witnesses will go in the order that they are 
seated, with Mr. Basham, our Commissioner of Customs and Border 
Protection.
    You have 5 minutes.

STATEMENT OF W. RALPH BASHAM, COMMISSIONER, CUSTOMS AND BORDER 
  PROTECTION, DEPARTMENT OF HOMELAND SECURITY, ACCOMPANIED BY 
   JAYSON P. AHERN, DEPUTY COMMISSIONER, CUSTOMS AND BORDER 
          PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Basham. Chairman Thompson, Ranking Member King and 
Members of the committee, I am here today to discuss U.S. 
Customs and Border Protection's progress to secure the Nation's 
borders and how our future plans for the SBInet program 
complement our overall border security efforts.
    Appearing with me today is CBP's Deputy Commissioner, 
Jayson Ahern. Normally we would not appear together, but 
knowing the committee's concerns about transition as we near 
the end of the administration, I thought it best for both of us 
to be here to assure you that CBP's commitment to secure the 
border and deploy effective technology to our frontline 
personnel does not end in January.
    I will turn to SBInet in a moment. Our full written 
statement contains a more in-depth discussion of the program 
and the latest GAO recommendations. But first let me provide a 
context for our discussion today.
    Mr. Chairman, I believe you and the Members of the 
committee will agree that CBP shoulders an enormous 
responsibility to secure the borders of the country against 
terrorists and weapons of terror while still carrying out our 
traditional missions of stopping illegal aliens and drugs and 
fostering the free flow of legitimate trade and travel.
    Since that tragic day 7 years ago tomorrow, there has been 
an urgency about our mission, and we have set about our work as 
quickly and efficiently as possible. We have successfully 
deployed and implemented a layered defense strategy to protect 
our ports of entry, including advance information and risk 
targeting on cargo coming into our country. We have increased 
our manpower, technology and infrastructure on both the 
northern and the southern borders. We have nearly doubled the 
number of Border Patrol agents and integrated and hired a work 
force of CBP officers, and we are working even closer with our 
Canadian and Mexican counterparts and entered new security 
partnerships with many countries in the trade industry that 
have literally pushed out our borders.
    To further secure our borders we initiated the Secure 
Border Initiative and within it the SBI program. But SBI and 
SBInet represent only a piece of our overall efforts to secure 
the border. All too often the focus on these two topics ignores 
the larger narrative. That is unfortunate because when the full 
story is told, we have taken more actions to secure our Nation 
in the last 7 years than in the preceding half century.
    But as a topic for congressional hearings, good stories and 
positive accomplishments don't grab as much attention as 
perceived failures. I at least wanted to mention it before the 
story is lost once more.
    But I also would like to thank and recognize GAO for their 
participation today and collaboration with us. Rich Stana and 
Randy Hite and their staffs have devoted countless hours over 
the last 2+ years examining our SBI efforts. They have provided 
invaluable feedback and suggestions to help us carry out this 
incredibly important and challenging undertaking. We view them 
as partners in this endeavor, and we are pleased to be 
testifying with them today here. With minor exceptions we 
largely agree with GAO's findings and have already begun to 
implement the recommendations.
    However, I am disturbed by the unfair characterization 
contained in the title of this hearing, the accusation that 
this program and our efforts have been fraught with 
mismanagement and missteps. I am also disturbed by the 
inaccurate assertions that reach back in time and try the blame 
the agency, the Department and the administration for the 1990 
technology programs managed by INS.
    From the inception of CBP, we have always been driven by 
the desire to get effective tools into the hands of our agents 
and officers as soon as possible. Over the past 7 years, we 
have succeeded in doing that with aggressive technology 
programs ranging from radiation portal monitors to the 
automated targeting system.
    SBI was no different. In fact, it was maybe more 
aggressive. We set very ambitious goals and timelines, and we 
attempted to move on many parallel tracks to achieve those 
ambitious goals. However, we did not and we will not rush to 
deploy something that is not ready just to meet our deadlines 
or anyone else's. Our priority is get it right before we deploy 
it.
    Nor have we been irresponsible with taxpayers' funds. The 
GAO and Members of this very committee, in fact, have cautioned 
against such rushed actions.
    In the last year, we have heard Members of the committee 
say the approach of issuing different interdependent 
simultaneous task orders leaves the program vulnerable to 
collapsing. The GAO has said, we recommend the DHS reexamine 
the level of concurrency and appropriately adjust the 
acquisition strategy. We responded. We reduced the concurrency 
and we reduced the risk.
    Members have also said the single thing that concerns me 
most is that timing seems to be driving the agenda more than 
actually being able to deploy something meaningful; why are we 
moving ahead? In response, we have slowed down our deployment 
schedule and added integration and testing. I trust that no one 
would criticize these actions as missed benchmarks and 
mismanagement when we are doing exactly what GAO and the 
Congress has suggested.
    I realize that part of the frustration is simply the nature 
of any significant, long-term technology investment. If we move 
too fast and don't test enough, we are criticized. Yet when we 
slow down to test, we are criticized for not meeting our own 
goals and time lines.
    Maybe there is no winning this debate. But that is probably 
unimportant anyhow. In the end, how you and I judge the success 
of this program should be the same. That is, have we deployed 
technology systems to our agents and officers that makes them 
more effective and efficient, and have we done so in a fiscally 
responsible manner? I think we are on the right track to answer 
that question in the affirmative. But it may be years before we 
can be sure of the answer.
    While I can't come before you today and claim that SBI has 
not proceeded without problems, I can tell you it is not a 
failure. I assure you that our commitment to getting technology 
right and into the hands of our front-line personnel has never 
been stronger.
    Thank you and I would look forward to answering your 
questions.
    Chairman Thompson. Thank you.
    [The joint statement of Mr. Basham and Mr. Ahern follows:]
       Prepared Statement of W. Ralph Basham and Jayson P. Ahern
                           September 10, 2008
    Chairman Thompson, Ranking Member King, and distinguished committee 
Members, it is our honor to have the opportunity to appear before you 
today to provide you with an update on the progress of our SBI 
programs, specifically, the planning and deployment of SBInet 
technology and construction of the fence. My name is Ralph Basham, and 
I am the Commissioner of the U.S. Customs and Border Protection (CBP), 
and with me is Deputy Commissioner Jayson Ahern.
    We greatly appreciate the Government Accountability Office's 
(GAO's) insight and recommendations and will be providing our progress 
to date, including potential challenges as we move forward. CBP shares 
many of the same concerns expressed by GAO and Members of this 
committee with respect to the planned SBInet acquisition, development, 
testing, and deployment activities. As a result, CBP is developing a 
detailed SBInet program re-plan to mitigate these risks. Further, CBP 
continues to move forward with our plan to achieve our goal of having 
670 miles of fence in place along the southwest border.
                                 sbinet
    Through SBInet, CBP will field an effective, integrated mix of 
technology, such as radars, communication devices, cameras, sensors, 
and other equipment. These components will be tied together via Common 
Operating Picture (COP) software that provides real-time situational 
awareness, and significantly improves our information and intelligence-
sharing efforts with other law enforcement partners. This integrated 
system will complement the deployment of infrastructure (vehicle and 
pedestrian fence, lighting, and all-weather roads) and response 
platforms to enable Border Patrol agents, CBP officers, and Air and 
Marine interdiction agents to more efficiently deter, detect, and 
apprehend illegal entries into the United States.
    Project 28 (P-28), our proof-of-concept technology demonstration, 
has continued to provide operational utility to Border Patrol agents in 
the sector, and provided insights into the operational and technical 
challenges the SBInet team will face in designing, developing, and 
deploying an integrated land-based sensor system for cost-effective 
surveillance and control of the border. Between September 2007 and 
September 2008, the system has assisted Border Patrol in the 
apprehension of over 3,800 illegal aliens. Due to the proper mix of 
personnel, infrastructure, and technology deployed in this area, 
illicit cross-border activity is down by almost 39 percent between 
December 7, 2007, and September 7, 2008, as compared to the same time 
frame the previous year. In coordination with the U.S. Army, we 
continued to test P-28 capabilities through mid-summer. We are 
reviewing the results and lessons, which will be used to support 
development and deployment of future SBInet projects.
    The SBInet team is currently testing the design of the first SBInet 
operational deployment projects in the Tucson Sector, TUS-1 and AJO-1, 
which will cover a total of 53 miles of the southwest border. As 
observed by the GAO earlier this year, the plan for TUS-1 had been to 
construct the towers that would house cameras and sensors, while 
concurrently carrying out system integration testing. We recognized the 
additional program risk associated with conducting concurrent 
activities and managing an aggressive schedule. Accordingly, the SBInet 
team began to explore the feasibility of a field test site that would 
provide an operational simulation of the Arizona project areas to 
enable formal system qualification testing (i.e., testing that deploys 
technology in an operational environment similar to the actual project 
environment) before beginning tower construction for the TUS-1 
deployment. Such a facility was identified in June 2008 at Playas, New 
Mexico.
    Our initial plan also called for beginning TUS-1 tower site 
preparation in mid-July 2008. However, based on necessary coordination 
with the Department of the Interior (DOI), the construction schedule 
was delayed in order to complete statutory environmental compliance 
reports and to obtain construction and land-use permits. As I will 
discuss in greater detail later in the testimony, around this same 
time, CBP also became aware of increasing fence construction costs that 
would require additional funding.
    The combination of the additional time needed to complete necessary 
coordination with DOI, concerns over the risks associated with our 
original SBInet deployment plan, and a need to fund the escalating 
fence costs provided an opportunity for us to revisit our overall 
development and deployment approach and address the recommendations 
from the GAO and Congress to minimize concurrent SBInet testing and 
deployment activities and the associated program risk. We have extended 
our ongoing system integration and verification testing to now be 
completed prior to the deployment of SBInet capabilities in TUS-1. Our 
re-planning now utilizes the operational representative field test lab 
in Playas, New Mexico, for completion of system testing.
    In mid-August, the Department of Homeland Security (DHS) Investment 
Review Board (IRB) approved CBP's revised testing and deployment plan. 
The IRB's decision requires CBP to provide a detailed Acquisition 
Program Baseline, an Integrated Master Schedule, and other programmatic 
documentation to the IRB by November 24, 2008. The schedule will show 
plans for completion of SBInet technology deployments in Tucson and 
Yuma Sectors. The IRB guidance also closely aligns with planned actions 
to address GAO's recommendations to better define SBInet deployments, 
capabilities, schedule, and lifecycle management processes, as well as 
improve baselining of SBInet requirements development and 
documentation. Pending a more detailed schedule of key milestones that 
will be completed in late September, we project a TUS-1 construction 
start in the first quarter of calendar year 2009. AJO-1 construction is 
planned to start following successful construction of TUS-1. Based on 
the results of those two deployments, and once we determine that the 
system is operationally effective and suitable, we will field 
additional SBInet technology deployments within the Tucson Sector in 
2009.
    The revised deployment schedule allows us to address DOI concerns 
and, most importantly, the need for thorough integration testing and 
formal System Qualification Testing prior to deployment. However, there 
is no change to the overall scope or direction of the SBInet program. 
The primary objectives of our re-planning effort are to reduce overall 
program risk by ensuring that SBInet system capabilities are properly 
tested and proven before their deployment and to establish consistent, 
formal documentation that baselines the program.
                        tactical infrastructure
    CBP remains committed to constructing the 670 miles of fence 
required by the Border Patrol and is working aggressively to meet this 
goal. As of August 29, 2008, over 344 miles of fencing have been 
constructed along the southwest border, including:
  <bullet> 190.0 miles of pedestrian fencing;
  <bullet> 154.3 miles of vehicle fencing.
    However, we face many challenges in achieving our goal. As 
previously noted, escalating construction costs coupled with 
competition for construction labor, equipment, and materials has 
resulted in significant fence construction cost increases. Beginning in 
July, proposals for several pending pedestrian fence projects started 
coming in at a cost significantly above our budgeted projections. Based 
on the U.S. Army Corps of Engineers' (USACE) analysis of the proposals 
and discussions with the bidders, rising fuel, steel, and other 
material costs appear to be the primary drivers of the cost 
escalations. The impact of these rising costs is being seen across the 
entire construction industry, including other USACE and CBP 
construction projects. Additionally, a boom in construction has further 
increased costs in many of our fence project areas due to competition 
for local and regional supplies of construction labor, equipment, and 
materials. Although these factors are beyond our control, we 
fortunately protected ourselves against the rising cost of some 
materials by locking in fixed prices through pre-purchasing long-lead 
structural steel in advance. This action saved the Government between 
$63 million and $100 million.
    Based on several economic indicators, we are concerned that the 
trend of escalating fence construction costs could continue into the 
foreseeable future. As such, it makes sound fiscal sense to fund these 
contracts and lock in these prices now. A strategy for funding this 
increased cost for fence construction--including a reprogramming 
request--was sent to our appropriators on September 9, 2008.
    It is also important to note that, cost increases aside, a number 
of other factors continue to present challenges to achieving our fence 
construction goals. These include: completing legal actions to acquire 
private property in Texas, complying with International Boundary and 
Water Commission requirements along the Rio Grande River, appropriately 
addressing cultural mitigation issues, and resolving any unforeseen 
construction challenges that may arise.
                               conclusion
    Our front-line personnel are the Nation's most important asset in 
securing the borders, and the mission success of CBP's agents and 
officers is dependent upon their access to the tools they need to most 
effectively and efficiently carry out their duties. CBP remains 
committed to continuing to provide our agents and officers with these 
tools to help them help them gain effective control of our Nation's 
borders. However, I want to assure you that we take our stewardship of 
taxpayer resources seriously, and we will continue to address 
challenges associated with developing and deploying both technology and 
tactical infrastructure in a manner that balances our Nation's security 
with sound financial management principles. I would like to thank the 
committee for the opportunity to present this testimony today and for 
your continued support of DHS and CBP. We would be pleased to respond 
to any questions that you may have at this time.

    Chairman Thompson. Mr. Stana for 5 minutes.

STATEMENT OF RICHARD M. STANA, DIRECTOR, HOMELAND SECURITY AND 
        JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stana. Thank you, Chairman Thompson, Mr. King and 
Members of the committee.
    Shortly after the launch of the Secure Border Initiative, 
the committee asked us to review the SBI program and to provide 
periodic updates on the status of our efforts and interim 
findings. My testimony today provides our third formal update.
    As you know, SBI is a multi-year, multi-billion dollar 
program aimed at stemming illegal entry into the country. Since 
fiscal year 2006, Congress has appropriated over $2.7 billion 
for SBI, and DHS has requested an additional $775 million for 
fiscal 2009. I would like to take the next few minutes to 
highlight our observations on SBI program status and deployment 
challenges.
    First, with regard to technology deployment, SBInet 
technology deployments continue to experience delays, and as a 
result, Border Patrol agents have to rely on existing limited 
technology capabilities to help secure our border.
    Last year at this time, SBI program officials expected to 
complete all of the first planned deployment of technology 
projects across the Yuma, Tucson, and El Paso sectors by the 
end of December, 2008. But, in February, program office 
officials told us that only a portion of the Tucson sector 
would be completed by the end of this year and other 
deployments would be completed by the end of December 2011.
    In July, SBI program officials told us that SBInet 
technology deployments to the Tucson, Yuma, and El Paso sectors 
have been further delayed and that the two planned deployments 
in the Tucson sector won't be completed until sometime in 2009.
    Randy Hite, GAO's Director for Information Technology, will 
soon describe in detail how SBInet program uncertainties, 
undefined program requirements and changes in deployment 
schedules have added risk to this program. In the absence of 
technology deployments, Border Patrol agents in part of the 
Tucson sector are using capabilities provided by Project 28, 
which is the SBI prototype which we previously reported having 
encountered performance shortfalls and delays.
    In other parts of the Tucson sector and in other sectors 
agents are using technology that predates SBInet and does not 
have the capabilities that SBInet is to provide. Continuing 
delays of technology deployments may hinder the Border Patrol's 
efforts to secure the border.
    Second, with regard to fencing and vehicle barriers, the 
deployment of tactical infrastructure projects along the 
Southwest border is ongoing, but costs are increasing, life-
cycle costs are not yet known, and land acquisition issues pose 
a challenge to meeting the goal DHS set to have 670 miles of 
pedestrian and vehicle fencing in place by the end of this 
year.
    Three weeks ago, the SBI program office reported that it 
had constructed a total of 341 miles or about half of the 
fencing goal and that they plan to complete the fencing 
projects by the December deadline. However, project costs are 
increasing significantly and various factors pose challenges to 
meeting this deadline. As of August 2008, fencing cost averaged 
$7.5 million per mile for pedestrian fencing and $2.8 million 
per mile for vehicle fencing, which are substantial increases 
from estimates last February of 4 million and 2 million per 
mile, respectively. The SBI program office officials still do 
not have a life-cycle cost estimate for the fencing, in part 
because of increasing construction costs and undetermined 
maintenance costs.
    With respect to land acquisition issues, identifying land-
owners and negotiating land purchases present a challenge to 
completing fence construction by December. For example, as of 2 
weeks ago, 320 properties remained to be acquired, and court 
dates have not yet been set regarding 77 landowners who are 
refusing to sell. Importantly, the construction of fencing 
segments usually requires 90 to 100 days to complete, and the 
completion of all tactical infrastructure projects by the end 
of this year is in jeopardy if issues related to land 
acquisition issues are not resolved in the next 3 weeks or so.
    Finally, with respect to project management, currently the 
SBI program office is reevaluating its staffing goal. In 
February, it reported that the SBI office had established a 
staffing goal of 470 employees for this year. As of August 1, 
the program office had 129 Government staff and 164 contractor 
support staff for a total of 293 employees. Program office 
officials told us that an office reorganization and SBInet 
project delays have resulted in fewer staffing needs and that 
they will continue to evaluate the expected staffing needs 
through the end of next year.
    With respect to human capital management, the program 
office has taken actions to implement parts of its human 
capital plan, but other parts have yet to be approved and acted 
upon. Until the SBI program office fully implements its plan, 
it will lack a baseline and metrics by which to judge its human 
capital efforts.
    In closing, the SBI program continues to face difficulties 
that include delays in project implementation and cost 
increases. Program delays and cost uncertainties could affect 
DHS's ability to meet projected completion dates, expected 
costs, and performance goals. Ultimately, the delays could 
adversely impact the Border Patrol's efforts to secure the 
border.
    These issues underscore Congress's need to stay closely 
attuned to DHS's, progress, to ensure that schedule and costs 
estimates stabilize, and that the program efficiently and 
effectively addresses the Nation's border security needs.
    I would be happy to address any questions the Members may 
have.
    Chairman Thompson. Thank you.
    [The statement of Mr. Stana follows:]
                 Prepared Statement of Richard M. Stana
                           September 10, 2008
    Secure Border Initiative: Observations on Deployment Challenges
                             gao highlights
    Highlights of GAO-08-1141T, a testimony before the Committee on 
Homeland Security, House of Representatives.
Why GAO Did This Study
    In November 2005, the Department of Homeland Security (DHS) 
established the Secure Border Initiative (SBI), a multi-year, multi-
billion-dollar program to secure U.S. borders. One element of SBI is 
the U.S. Customs and Border Protection's (CBP) SBI program, which is 
responsible for developing a comprehensive border protection system 
through a mix of surveillance and communication technologies known as 
SBInet (e.g., radars, sensors, cameras, and satellite phones), and 
tactical infrastructure (e.g., fencing).
    The House Committee on Homeland Security and its Subcommittee on 
Management, Investigations, and Oversight asked GAO to monitor DHS 
progress in implementing CBP's SBI program. This testimony provides 
GAO's observations on: (1) Technology deployment; (2) infrastructure 
deployment; and (3) how the CBP SBI program office has defined its 
human capital goals and the progress it has made to achieve these 
goals. GAO's observations are based on prior and new work, including 
analysis of DHS documentation, such as program schedules, contracts, 
and status reports. GAO also conducted interviews with DHS and 
Department of the Interior officials and contractors, and visits to 
sites on the southwest border where SBI deployment is under way. GAO 
performed the work from March to September 2008. DHS generally agreed 
with GAO's findings.
What GAO Found
    SBInet technology deployments continue to experience delays and, as 
a result, Border Patrol agents have to rely upon existing limited 
technological capabilities to help achieve control of the border. SBI 
program officials had originally planned to deploy SBInet technology 
across the southwest border by the end of 2008, but in February 2008 
this date had slipped to 2011. In July 2008, officials reported that 
two initial projects that had been scheduled to be completed by the end 
of calendar year 2008 would be finished sometime in 2009. SBInet 
program uncertainties, such as not fully defined program expectations, 
changes to timelines, and confusion over the need to obtain 
environmental permits contribute to ongoing delays of SBInet technology 
deployments. Due to the delays, Border Patrol agents continue to use 
existing technology that predates SBInet, and in the Tucson, Arizona, 
area they are using capabilities from SBInet's prototype system despite 
previously reported performance shortfalls. Further delays of SBInet 
technology deployments may hinder the Border Patrol's efforts to secure 
the border.
    The deployment of fencing is ongoing, but costs are increasing, the 
life-cycle cost is not yet known, and meeting DHS's statutorily 
required goal to have 670 miles of fencing in place by December 31, 
2008, will be challenging. As of August 22, 2008, the SBI program 
office reported that it had constructed a total of 341 miles of 
fencing, and program officials stated that they plan to meet the 
December 2008 deadline. However, project costs are increasing and 
various factors pose challenges to meeting this deadline, such as a 
short supply of labor and land acquisition issues. According to program 
officials, as of August 2008, fencing costs averaged $7.5 million per 
mile for pedestrian fencing and $2.8 million per mile for vehicle 
fencing, up from estimates in February 2008 of $4 million and $2 
million per mile, respectively. Furthermore, the life-cycle cost is not 
yet known, in part because of increasing construction costs and because 
the program office has yet to determine maintenance costs and locations 
for fencing projects beyond December 2008. In addition, land 
acquisition issues present a challenge to completing fence 
construction.
    As of September 2008, the SBI program office was reevaluating its 
staffing goal and continued to take actions to implement its human 
capital plan. In February 2008, we reported that the SBI program office 
had established a staffing goal of 470 employees for fiscal year 2008. 
As of August 1, 2008, the SBI program office reported having 129 
Government staff and 164 contractor support staff for a total of 293 
employees. Program officials stated that a reorganization of the SBI 
program office and SBInet project delays have resulted in fewer 
staffing needs and that they plan to continue to evaluate these needs. 
The SBI program office also continued to take steps to implement its 
human capital plan. For example, recruitment efforts are under way to 
fill open positions. However, the SBI program office is in the process 
of drafting or has drafted documents, such as the Succession Management 
Plan, that have yet to be approved or put into action.
    Chairman Thompson, Mr. King, and Members of the committee, I am 
pleased to be here today to discuss observations on selected aspects of 
the Secure Border Initiative (SBI) program implementation. Securing the 
Nation's borders from illegal entry of aliens and contraband, including 
terrorists and weapons of mass destruction, continues to be a major 
concern. Much of the United States' 6,000 miles of international 
borders with Canada and Mexico remains vulnerable to illegal entry. 
Although the Department of Homeland Security (DHS) apprehends hundreds 
of thousands of people entering the country illegally each year, 
several hundreds of thousands of individuals also enter the United 
States illegally and undetected. In November 2005, DHS announced the 
launch of the Secure Border Initiative (SBI), a multi-year, multi-
billion-dollar program aimed at securing U.S. borders and reducing 
illegal immigration. Elements of SBI will be carried out by several 
organizations within DHS. The U.S. Customs and Border Protection's 
(CBP) SBI program \1\ is responsible for developing a comprehensive 
border protection system using technology, known as SBInet, and 
tactical infrastructure--fencing, roads, and lighting.
---------------------------------------------------------------------------
    \1\ The CBP SBI Program Executive Office, referred to in this 
testimony as the SBI program office, is responsible for overseeing all 
SBI activities for acquisition and implementation, including 
establishing and meeting program goals, objectives, and schedules; for 
overseeing contractor performance; and for coordinating among DHS 
agencies.
---------------------------------------------------------------------------
    You requested that we monitor CBP's SBI program and provide 
periodic updates on the status of the program. My testimony today is 
the third in a series of interim reports on SBI implementation \2\ and 
focuses on the following issues:
---------------------------------------------------------------------------
    \2\ See GAO, Secure Border Initiative: Observations on the 
Importance of Applying Lessons Learned to Future Projects, GAO-08-508T 
(Washington, DC: Feb. 27, 2008); and Secure Border Initiative: 
Observations on Selected Aspects of SBInet Program Implementation, GAO-
08-131T (Washington, DC: Oct. 24, 2007).
---------------------------------------------------------------------------
  <bullet> SBInet technology deployment;
  <bullet> SBI tactical infrastructure deployment; and,
  <bullet> how the SBI program office has defined its human capital 
        goals and the progress it has made to achieve these goals.
    To address these issues, we analyzed DHS documents, including 
program schedules, status reports, and work force data. We determined 
that the data were sufficiently reliable for purposes of this 
testimony. We interviewed DHS and CBP headquarters and field officials, 
including representatives of the SBI program office, Border Patrol, and 
Border Patrol's Office of Training and Development; U.S. Army Corps of 
Engineers (USACE) officials; Department of Interior (DOI) officials, 
including representatives of the Office of the Deputy Secretary and 
Office of Law Enforcement Security and Emergency Management; and 
representatives of the prime contractor, Boeing. We also visited the 
Border Patrol's Rio Grande Valley, Tucson, and El Paso sectors \3\--
sites where SBInet technology, fencing deployment, or both, were under 
way at the time of our review. During the visit to the Rio Grande 
Valley, we also met with public officials and members of the community 
to discuss proposed SBI fencing projects and their effect on the 
communities. We conducted this performance audit from March 2008 
through September 2008 in accordance with generally accepted Government 
auditing standards. Those standards require that we plan and perform 
the work to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our objectives.
---------------------------------------------------------------------------
    \3\ The U.S. Border Patrol has 20 sectors responsible for 
detecting, interdicting, and apprehending those who attempt illegal 
entry or smuggle people--including terrorists, contraband, and weapons 
of mass destruction--across U.S. borders between official ports of 
entry.
---------------------------------------------------------------------------
    We also have work underway and have completed work to review other 
components of the SBI program. Specifically, today we are also 
providing a statement for this committee that assesses DHS's efforts to 
define the scope, timing, and approach for developing SBInet 
capabilities, and how well DHS is managing related requirements 
development and management and testing activities.\4\ We also expect to 
issue a report covering these topics later this month. In addition, in 
April 2008, we completed a report on SBInet as part of a broader review 
of DHS's use of performance-based services acquisition, an acquisition 
method structured around the results to be achieved instead of the 
manner by which the service should be performed.\5\ Last, as mandated 
in the Consolidated Appropriations Act, 2008,\6\ we reviewed DHS's 
fiscal year 2008 expenditure plan for the SBI program and reported in 
June 2008.\7\ A list of SBI-related products appears at the end of this 
statement.
---------------------------------------------------------------------------
    \4\ See GAO, Secure Border Initiative: DHS Needs to Address 
Significant Risks in Delivering Key Technology Investment, GAO-08-1148T 
(Washington, DC: Sept. 10, 2008).
    \5\ See GAO, Department of Homeland Security: Better Planning and 
Assessment Needed to Improve Outcomes for Complex Service Acquisitions, 
GAO-08-263 (Washington, DC: Apr. 22, 2008) and Department of Homeland 
Security: Better Planning and Oversight Needed to Improve Complex 
Service Acquisition Outcomes, GAO-08-765T (Washington, DC: May 8, 
2008).
    \6\ Pub. L. No. 110-161, 121 Stat. 1844, 2047-2049.
    \7\ See GAO, Secure Border Initiative Fiscal Year 2008 Expenditure 
Plan Shows Improvement, but Deficiencies Limit Congressional Oversight 
and DHS Accountability, GAO-08-739R (Washington, DC: June 26, 2008).
---------------------------------------------------------------------------
                                summary
    SBInet technology deployments continue to experience delays and, as 
a result, Border Patrol agents have to rely upon existing limited 
technological capabilities to help secure the border. As of October 
2007, SBI program officials expected to complete all of the first 
planned deployment of technology projects across the Tucson, Yuma, and 
El Paso sectors by the end of calendar year 2008. But, by February 
2008, program office officials said that only a portion of the Tucson 
sector would be completed by the end of calendar year 2008 and other 
deployments would be complete by the end of calendar year 2011. In July 
2008, SBI program office officials reported that SBInet technology 
deployment to the Tucson, Yuma and El Paso sectors had been further 
delayed and that the two planned deployments in the Tucson sector would 
be completed sometime in 2009. SBInet program uncertainties, such as 
not fully defined program expectations, changes in deployment 
schedules, and confusion over the applicability of environmental 
regulations, continue to delay SBInet technology deployments. For 
example, the construction permit application for initial SBInet 
deployment sites on environmentally sensitive lands was submitted on 
July 10, 2008. According to DOI officials, the process normally takes 2 
to 3 months and the SBI program office had planned to begin 
construction on July 15, 2008. In the Tucson sector, Border Patrol 
agents are using capabilities provided by Project 28, the SBInet 
prototype, which we previously reported had encountered performance 
shortfalls and delays.\8\ In other sectors, agents are using technology 
that predates SBInet and does not have the capabilities that SBInet is 
to provide. Further delays of SBInet technology deployments may hinder 
the Border Patrol's efforts to secure the border.
---------------------------------------------------------------------------
    \8\ GAO-08-508T.
---------------------------------------------------------------------------
    The deployment of tactical infrastructure projects along the 
southwest border is ongoing, but costs are increasing, the life-cycle 
cost \9\ is not yet known, and land acquisition issues pose a challenge 
to DHS meeting the goal it set, as required by law, to have 670 miles 
of fencing--370 miles of pedestrian fence and 300 miles of vehicle 
fence--in place by December 31, 2008. As of August 22, 2008, the SBI 
program office reported that it had constructed a total of 341 miles of 
fencing--187 miles of pedestrian fence and 154 miles of vehicle fence, 
and program officials stated that they plan to meet the December 2008 
deadline. However, project costs are increasing and various factors 
pose challenges to meeting this deadline, such as a short supply of 
labor and land acquisition issues. According to program officials, as 
of August 2008, fencing costs averaged $7.5 million per mile for 
pedestrian fencing and $2.8 million per mile for vehicle fencing, up 
from estimates in February 2008 of $4 million and $2 million per mile, 
respectively.\10\ Furthermore, SBI program office officials do not have 
a life-cycle cost estimate for fencing, in part because of increasing 
construction costs and also because the SBI program office has not yet 
determined the maintenance costs and locations for fencing construction 
projects beyond December 2008. Without a life-cycle cost estimate, the 
total cost to build and maintain fencing along the southwest border is 
not yet known. With respect to land acquisition issues, identifying 
landowners and negotiating land purchases present a challenge to 
completing fence construction by December 2008. For example, as of 
August 26, 2008, an estimated 320 properties remain to be acquired from 
landowners. Program officials noted that the fencing construction 
segments usually require 90 to 120 days to complete, and completion of 
all tactical infrastructure projects by December 31, 2008, is in 
jeopardy if issues related to land acquisition are not resolved.
---------------------------------------------------------------------------
    \9\ The estimated life-cycle cost is the total cost to the 
Government for a program over its full life, consisting of research and 
development, operations, maintenance, and disposal costs. Using a life-
cycle cost estimate to determine the budget helps to ensure that all 
costs are fully accounted for so that resources are adequate to support 
the program. See GAO, Cost Assessment Guide: Best Practices for 
Estimating and Managing Program Costs--Exposure Draft, GAO-07-1134SP 
(Washington, DC: July 2007).
    \10\ GAO-08-508T.
---------------------------------------------------------------------------
    As of September 2008, the SBI program office was reevaluating its 
staffing goal and office continues to take actions to implement its 
December 2007 human capital plan. In February 2008, we reported that 
the SBI program office had established a staffing goal of 470 employees 
for fiscal year 2008.\11\ As of August 1, 2008, the SBI program office 
reported having 129 Government staff and 164 contractor support staff 
for a total of 293 employees. SBI program office officials said that a 
reorganization of the SBI program office and SBInet project delays have 
resulted in fewer staffing needs. The officials further noted they will 
continue to evaluate the expected staffing needs through the end of 
fiscal year 2009. In addition, the SBI program continues to implement 
its human capital plan. For example, the SBI program office has 
recruitment efforts underway to fill open positions. However, in other 
areas, the SBI program office is in the process of drafting or has 
drafted documents, such as the SBI Succession Management Plan, which 
have yet to be approved and acted upon. Until the SBI program office 
fully implements its plan, it will lack a baseline and metrics by which 
to judge its human capital efforts.
---------------------------------------------------------------------------
    \11\ GAO-08-508T.
---------------------------------------------------------------------------
    In their oral comments on a draft of this statement, DHS generally 
agreed with our findings and provided clarifying information that we 
incorporated as appropriate.
                               background
    CBP's SBI program is responsible for deploying SBInet (e.g., 
sensors, cameras, radars, communications systems, and mounted laptop 
computers for agent vehicles), and tactical infrastructure (e.g., 
pedestrian and vehicle fencing, roads, and lighting) that are intended 
to enable CBP agents and officers to gain effective control of U.S. 
borders.\12\ SBInet technology is intended to include the development 
and deployment of a common operating picture (COP) that provides data 
through a command center to Border Patrol agents in the field and 
potentially to all DHS agencies and to be interoperable with 
stakeholders external to DHS, such as local law enforcement. The 
current focus of the SBI program is on the southwest border areas 
between the ports of entry \13\ that CBP has designated as having the 
highest need for enhanced border security because of serious 
vulnerabilities. The SBI program office and its offices of SBInet and 
tactical infrastructure are responsible for overall program 
implementation and oversight.
---------------------------------------------------------------------------
    \12\ DHS defines effective control of U.S. borders as the ability 
to consistently: (1) Detect illegal entries into the United States; (2) 
identify and classify these entries to determine the level of threat 
involved; (3) efficiently and effectively respond to these entries; and 
(4) bring events to a satisfactory law enforcement resolution.
    \13\ At a port of entry location, CBP officers secure the flow of 
people and cargo into and out of the country, while facilitating 
legitimate travel and trade.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In September 2006, CBP awarded a prime contract to the Boeing 
Company for 3 years, with three additional 1-year options. As the prime 
contractor, Boeing is responsible for acquiring, deploying, and 
sustaining selected SBI technology and tactical infrastructure 
projects. In this way, Boeing has extensive involvement in the SBI 
program-requirements development, design, production, integration, 
testing, and maintenance and support of SBI projects. Moreover, Boeing 
is responsible for selecting and managing a team of subcontractors that 
provide individual components for Boeing to integrate into the SBInet 
system. The SBInet contract is largely performance-based--that is, CBP 
has set requirements for the project and Boeing and CBP coordinate and 
collaborate to develop solutions to meet these requirements--and 
designed to maximize the use of commercial off-the-shelf 
technology.\14\ CBP's SBI program office oversees and manages the 
Boeing-led SBI contractor team.
---------------------------------------------------------------------------
    \14\ Commercial off-the-shelf is a term for software or hardware, 
generally technology or computer products, that are available for sale, 
lease, or license to the general public.
---------------------------------------------------------------------------
    CBP is executing part of SBI activities through a series of task 
orders to Boeing for individual projects. As of September 5, 2008, CBP 
had awarded 11 task orders to Boeing for a total amount of $933.3 
million. Table 1 is a summary of the task orders awarded to Boeing for 
SBI projects.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In addition to deploying technology across the southwest border, 
the SBI program office plans to deploy 370 miles of single-layer 
pedestrian fencing and 300 miles of vehicle fencing by December 31, 
2008. Pedestrian fencing is designed to prevent people on foot from 
crossing the border and vehicle fencing consists of physical barriers 
meant to stop the entry of vehicles. Figure 2 shows examples of SBI 
fencing styles along the southwest border. The SBI program office, 
through the tactical infrastructure program, is using USACE to contract 
for fencing and supporting infrastructure (such: as lights and roads), 
complete required environmental assessments, and acquire necessary real 
estate.\15\ In June 2008, CBP awarded Boeing a supply and supply chain 
management task order for the purchase of construction items, such as 
steel.
---------------------------------------------------------------------------
    \15\ The SBI program office contracted with Boeing Company to 
construct 32 miles of fencing in the BMGR. Deployment of this fencing 
has been completed, and the SBI program office plans to use USACE to 
contract for most remaining pedestrian fencing and vehicle barriers to 
be deployed through December 2008.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Since fiscal year 2006, Congress has appropriated more than $2.7 
billion for SBI. Table 2 shows SBI obligations from fiscal years 2006 
through 2008 for SBInet technology, tactical infrastructure, and 
program management. DHS has requested an additional $775 million for 
SBI for fiscal year 2009.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

sbinet deployment delays are ongoing and border patrol agents continue 
              to use existing technology to secure borders
    SBInet technology deployments continue to experience delays and, as 
a result, Border Patrol agents have to rely upon existing limited 
technological capabilities to help achieve effective control of the 
border. We reported in October 2007, that SBI program office officials 
expected to complete all of the first planned deployment of technology 
projects in the Tucson, Yuma, and El Paso sectors by the end of 
2008.\16\ In February 2008, we reported that the first planned 
deployment of technology would occur in two geographic areas within the 
Tucson sector--known as Tucson-1 and Ajo-1--by the end of calendar year 
2008, with the remainder of deployments to the Tucson, Yuma, and El 
Paso sectors scheduled to be completed by the end of calendar year 
2011.\17\ In July 2008, SBI program office officials reported that 
SBInet technology deployments to Tucson-1 and Ajo-1 would be completed 
sometime in 2009. These officials further noted that SBInet technology 
deployments in the Tucson, Yuma, and El Paso sectors had also been 
delayed.
---------------------------------------------------------------------------
    \16\ GAO-08-131T.
    \17\ GAO-08-508T.
---------------------------------------------------------------------------
    SBInet program uncertainties contribute to ongoing delays of SBInet 
technology deployments. These include:
  <bullet> SBInet technology will be deployed to fewer sites than 
        originally planned by the end of 2008; is expected to have 
        fewer capabilities than originally planned at that time; and as 
        discussed above, the SBInet program office does not have 
        specific deployment dates;
  <bullet> SBInet planning documents and mechanisms, such as the 
        integrated master schedule, have not received executive 
        approval and are constantly changing.\18\ For example, the 
        current (unapproved) schedule is out of date and under 
        revision; and,
---------------------------------------------------------------------------
    \18\ The integrated master schedule is a planning tool intended to 
integrate the disparate project schedules that officials use to manage 
SBInet program activities.
---------------------------------------------------------------------------
  <bullet> The SBInet program office has not effectively defined and 
        managed program expectations, including specific project 
        requirements.\19\
---------------------------------------------------------------------------
    \19\ These issues are discussed in greater detail in GAO-08-1148T.
---------------------------------------------------------------------------
    The need to obtain environmental permits is also contributing to 
the initial Tucson deployment delays. According to DOI officials, DHS 
officials initially stated that the DHS authority to waive all legal 
requirements as necessary to ensure expeditious construction covered 
both SBInet technology and tactical infrastructure projects.\20\ 
However, DHS officials later determined that the Secretary's April 1, 
2008, waiver did not extend to the Tucson-1 and Ajo-1 SBInet projects. 
Without waiver coverage for these projects, DHS must conform to the 
National Environmental Policy Act,\21\ which requires Federal agencies 
to evaluate the likely environmental effects of projects they are 
proposing using an environmental assessment or, if the projects likely 
would significantly affect the environment, a more detailed 
environmental impact statement. According to DOI officials, SBI program 
office officials had planned to submit the permit application for the 
Tucson-1 project area in February 2008, requesting access and 
permission to build on environmentally sensitive lands. SBI officials 
said that they had been working with DOI local land managers; however, 
due to confusion over the DHS waiver authority, the complete 
application for the tower construction sites was submitted on July 10, 
2008, while the SBI program office had planned to begin construction 
for Tucson-1 on July 15, 2008. According to DOI officials, the approval 
process normally takes 2 to 3 months, but they have expedited the DHS 
permit and plan to resolve the application in mid-September 2008.
---------------------------------------------------------------------------
    \20\ The REAL ID Act of 2005 allowed the Secretary of Homeland 
Security to waive all legal requirements he determines necessary to 
ensure expeditious construction of physical barriers and roads along 
the U.S. border to deter illegal crossings in areas of high illegal 
entry. Pub. L. No. 109-19,  102, 119 Stat. 302, 306.
    \21\ 42 U.S.C.  4321-4347.
---------------------------------------------------------------------------
    Given the delays with SBInet technology deployment, Border Patrol 
agents continue to rely upon existing technologies. The cameras and 
sensors in use predate SBInet technology and do not have the 
capabilities that SBInet technology is to provide.\22\ In addition, 
some of the equipment currently in use may be outdated. For example, in 
the Border Patrol's El Paso sector, aging cameras and sensors do not 
work in inclement weather and do not always function at night. In the 
Tucson sector, Border Patrol agents are using capabilities provided by 
Project 28, the SBInet prototype that was accepted by the Government in 
February 2008. We previously reported that Project 28 encountered 
performance shortfalls and delays.\23\ Despite these performance 
shortfalls, agents in the Tucson Sector continue to use Project 28 
technology capabilities while waiting for the SBInet technology 
deployment. During our visit to the Tucson Sector in June 2008, Border 
Patrol agents told us that the system had improved their operational 
capabilities, but that they must work around on-going problems, such as 
finding good signal strength for the wireless network, remotely 
controlling cameras, and modifying radar sensitivity. Moreover, during 
our visit we observed the agents' difficulties in logging on to the 
wireless network and maintaining the connection from the vehicle-
mounted mobile data terminal.\24\ Project 28 is the only available 
technology in the Tucson-1 project area of the Tucson sector, compared 
to the Ajo-1 project area, which does not have any technology. Further 
delays of SBInet technology deployments may hinder the Border Patrol's 
efforts to secure the border.
---------------------------------------------------------------------------
    \22\ SBInet is to provide a system with the detection, 
identification, and classification capabilities required to maintain 
operational control of the border. To do so, Boeing is to provide, 
among other items, mobile towers equipped with radar, cameras, a COP 
that communicates comprehensive situational awareness, and secure-
mounted laptop computers retrofitted in vehicles to provide agents in 
the field with COP information.
    \23\ GAO-08-508T.
    \24\ A mobile data terminal is a laptop computer mounted in select 
agent vehicles in the field. Mobile data terminals enable field agents 
to see information similar to that seen by command center operators.
---------------------------------------------------------------------------
tactical infrastructure deployment continues, but costs are increasing, 
the life-cycle cost is not yet known, and land acquisition issues pose 
               a challenge to completion of the timeline
    The deployment of tactical infrastructure projects along the 
southwest border is on-going, but costs are increasing, the life-cycle 
cost is not yet known, and land acquisition issues pose challenges to 
DHS in meeting the goal it set, as required by law, to complete 670 
miles of fencing--370 miles of pedestrian fence and 300 miles of 
vehicle fence, by December 31, 2008.\25\ We previously reported that as 
of February 21, 2008, the SBI program office had constructed 168 miles 
of pedestrian fence and 135 miles of vehicle fence.\26\ See figure 3 
for photographs of SBI tactical infrastructure projects in Arizona and 
New Mexico. Approximately 6 months later, the SBI program office 
reports that 19 additional miles of pedestrian fence and 19 additional 
miles of vehicle fence have been constructed as of August 22, 2008 (see 
table 3).
---------------------------------------------------------------------------
    \25\ The Consolidated Appropriations Act of 2008, requires DHS to 
complete construction by December 31, 2008, of 370 miles (or other 
mileage determined by the Secretary) of reinforced fencing along the 
southwest border wherever the Secretary determines it would be most 
practical and effective in deterring smugglers and aliens attempting 
illegal entry.
    \26\ GAO-08-508T.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Although SBI program office and USACE officials stated that they 
plan to meet the December deadline, factors such as a short supply of 
labor and materials, and the compressed timeline affect costs. SBI 
program office officials said that beginning in July 2008, as they were 
in the process of finalizing construction contracts, cost estimates for 
pedestrian fencing in Texas began to increase. According to USACE 
officials, as of August 28, 2008, fencing costs \27\ average $7.5 
million per mile for pedestrian fencing and $2.8 million per mile for 
vehicle fencing, up from estimates in February 2008 \28\ of $4 million 
and $2 million per mile, respectively. SBI program office officials 
attributed the cost increases to a short supply of both labor and 
materials as well as the compressed timeline. For example, they said 
that as a result of a construction boom in Texas, labor is in short 
supply and contractors report that they must provide premium pay and 
overtime to attract workers. In terms of materials, USACE officials 
stated the price of cement and steel have increased and in some areas 
within Texas obtaining cement near the construction site is difficult. 
For example, contractors are now procuring cement from Colorado, and 
aggregate, a cement mixing agent, from Houston, Texas. The SBI program 
office officials also said that increasing fuel costs for transporting 
steel and cement were contributing factors. Officials said they are 
working to mitigate the cost increases where possible, for example, 
through their bulk purchase of steel and their negotiations in one 
county where premium labor rates were higher than usual. The SBI 
program office officials said that the compressed construction timeline 
also contributes to the cost increase, particularly in terms of labor 
costs.
---------------------------------------------------------------------------
    \27\ According to USACE officials, the cost includes program 
management, environmental assessments, design, real estate, 
construction management, and construction costs.
    \28\ GAO-08-508T.
---------------------------------------------------------------------------
    The SBI program office does not yet have an estimated life-cycle 
cost for fencing because maintenance costs are unknown and the SBI 
program office has not identified locations for fencing construction 
projects beyond December 2008. The fiscal year 2008 Consolidated 
Appropriations Act required DHS to submit to the House and Senate 
Appropriations Committees an expenditure plan for the SBI program that 
included, among other things, a life-cycle cost estimate. However, the 
plan did not include the estimate. In a June 2008 response to an 
inquiry from the Chairman of the House Appropriations Subcommittee on 
Homeland Security regarding several deficiencies in the plan, the 
Secretary of Homeland Security stated that because Border Patrol agents 
have traditionally repaired damaged fencing themselves, DHS does not 
have historical cost data on fence repair by contractors on which to 
estimate life-cycle fence costs. However, according to the letter, DHS 
is currently collecting information on maintenance costs and by early 
calendar year 2009 plans to have a life-cycle cost estimate. In the 
near term, the Department requested $75 million for operations and 
maintenance of tactical infrastructure in fiscal year 2009, according 
to the letter. In addition, Border Patrol officials have identified 
additional segments of the southwest border for construction of 
pedestrian and vehicle fencing beyond December 2008 and SBI program 
office and Border Patrol stated that they are developing fencing 
project priorities for 2009. However, they have not yet established a 
timeline for construction, and sources of funding have not been 
determined.
    Land acquisition issues such as identifying landowners and 
negotiating land purchases present a challenge to completing fence 
construction by December 31, 2008. According to SBI program office 
officials, in order to adhere to this timeline, all fencing 
construction projects must be underway by September 30, 2008. However, 
according to SBI program office officials, as of August 26, 2008, an 
estimated 320 properties remain to be acquired from landowners. USACE 
officials noted that completion of fencing construction projects 
usually take 90 to 120 days and the December 31, 2008 deadline, is in 
jeopardy if on-going litigation related to land acquisition is not 
resolved by September 30, 2008 (see table 4).\29\
---------------------------------------------------------------------------
    \29\ USACE officials stated they have the primary responsibility 
for negotiating land acquisition agreements for fence construction with 
private landowners. In cases where the property owner does not agree to 
right of entry or an offer to sell, the Department of Justice files a 
lawsuit against the landowner on behalf of the United States of America 
at the request of the Secretary of Homeland Security for the 
condemnation and taking of the property.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Of the 122 landowners who have refused to sell, 97 are within the 
Rio Grande Valley sector. As of August 28, 2008, of these 97 
landowners, 20 are defendants in lawsuits filed by the Department of 
Justice at the request of the Secretary of Homeland Security for the 
condemnation and taking of their property. According to USACE 
officials, the 20 lawsuits were filed in July 2008 and are awaiting an 
order of possession ruling expected sometime in September 2008. 
Subsequent lawsuits were filed against the remaining 77 landowners, but 
court dates have not been set.\30\
---------------------------------------------------------------------------
    \30\ As of August 28, 2008, USACE officials reported that they 
continue to negotiate with these land-owners and some of these lawsuits 
may be settled out of court.
---------------------------------------------------------------------------
the sbi program management office is reevaluating its staffing goal and 
    has continued to take steps to implement its human capital plan
    As of September 2008, the SBI program office was reevaluating its 
staffing goal, and the SBI program office continued to take steps to 
implement the December 2007 Human Capital Plan. In February 2008, we 
reported that the SBI program office had established a staffing goal of 
470 employees for fiscal year 2008.\31\ As of August 1, 2008, the SBI 
program office reported having 129 Government staff and 164 contractor 
support staff for a total of 293 employees (see table 5). SBI program 
office officials stated that a reorganization of the SBI program office 
and project delays have resulted in a need for fewer staff during 
fiscal year 2008. The officials further noted they plan to continue to 
evaluate the expected staffing needs through the end of fiscal year 
2009.
---------------------------------------------------------------------------
    \31\ GAO-08-508T.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The SBI program office published the first version of its Strategic 
Human Capital Management Plan in December 2007, and as of September 
2008, continued to implement the plan. The SBI program office's plan 
outlines seven main goals for the office and includes planned 
activities to accomplish those goals, which align with Federal 
Government best practices.\32\ As of September, 2008, the SBI program 
office had taken several steps to implement the plan. For example, the 
SBI program office held a meeting on September 2, 2008, to develop 
SBI's mission, visionary goals and objectives, and core values, and the 
office has recruitment efforts under way to fill open positions. 
However, in other areas, the SBI program office is in the process of 
drafting or has drafted documents, such as the SBI Value Statement, the 
SBI Awards and Recognition Plan, and the Succession Management Plan, 
which have yet to be approved and acted upon. Table 6 summarizes the 
seven human capital goals, the SBI program office's planned activities, 
and steps taken to accomplish these activities. We have previously 
reported that a properly designed and implemented human capital program 
can contribute to achieving an agency's mission and strategic 
goals.\33\ Until the SBI program office fully implements its plan, it 
will lack a baseline and metrics by which to judge the human capital 
aspects of the program.
---------------------------------------------------------------------------
    \32\ These best practices are contained in the Government-wide 
Human Capital Assessment and Accountability Framework which was 
developed by Office of Management and Budget, the Office of Personnel 
Management, and GAO.
    \33\ See GAO, Human Capital: Key Principles for Effective Strategic 
Workforce Planning, GAO-04-39 (Washington, DC: Dec. 11, 2003).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                        concluding observations
    The SBI program continues to face challenges that include delays in 
project implementation and cost increases. The delays and cost 
uncertainties could affect DHS's ability to meet projected completion 
dates, expected costs, and performance goals. Border Patrol agents 
continue to rely upon existing limited technological capabilities as 
SBInet technology deployments delays persist, and this may hinder the 
Border Patrol's efforts to secure the border. In the tactical 
infrastructure area, meeting the Secretary's goal to build 670 miles of 
fencing by December 31, 2008, a goal that DHS was required by law to 
set for itself, continues to be challenging. Since our last report to 
you 6 months ago, 38 miles of fence have been built and 329 are to be 
constructed during the next 4 months--provided that land acquisition 
issues can be resolved. Furthermore, tactical infrastructure costs are 
increasing and the SBI program office has not yet determined a life-
cycle cost for fencing because maintenance costs are unknown and the 
SBI program office has not identified the locations for fencing 
construction projects beyond December 31, 2008; therefore, the total 
cost for building and maintaining fences along the southwest border is 
not yet known. These issues underscore Congress's need to stay closely 
attuned to DHS's progress to ensure that schedule and cost estimates 
stabilize, and the program efficiently and effectively addresses the 
Nation's border security needs.
    This concludes my prepared testimony. I would be pleased to respond 
to any questions that Members of the committee may have.

    Chairman Thompson. We will now hear from Mr. Hite for 5 
minutes.

STATEMENT OF RANDOLPH C. HITE, DIRECTOR, INFORMATION TECHNOLOGY 
                 ARCHITECTURE AND SYSTEM ISSUES

    Mr. Hite. Thank you.
    My testimony today will focus on SBInet and is based on a 
draft report that we are on target to issue to this committee 
on September 22. Like the report, the testimony addresses three 
questions that are fundamental to SBInet's success. They are, 
No. 1, has DHS adequately defined what capabilities are to be 
delivered, by when, and how they are be to delivered? No. 2, 
has DHS effectively defined and managed the requirements that 
should drive the delivered capabilities? No. 3, has DHS 
effectively tested these capabilities to ensure that 
requirements are met and that the system performs as intended?
    Mr. Chairman, the short answers to these questions are 
``no,'' ``no,'' and ``no.'' That is the bad news.
    The good news is that just last night we received DHS's 
comments on our draft report, and it agrees with seven out of 
the eight recommendations that are aimed at turning these 
``noes'' into ``yesses.'' I will now briefly expand on each of 
the ``no'' answers.
    First, SBInet scope and schedule, as well as its life-cycle 
management approaches, for far too long have been in a state of 
flux to the point that it is still unclear and uncertain what 
technology capabilities will be delivered when and where and 
how they will be delivered. More specifically, the scope of 
what is to be delivered has continued to shrink without 
becoming any clearer.
    For example, the scope went from having an undefined 
initial set of capabilities along the entire Southwest and 
Northern borders late in 2009 to having a to-be-determined set 
of capabilities at only two locations in one of nine sectors 
along the Southwest border sometime in 2009.
    Similarly, the timing and the sequencing of the work has 
continued to shift for delivering SBInet, and not in the right 
direction, with slippages in key activities and events being 
the norm rather than the exception. At the same time, the life-
cycle approach governing how things are to get accomplished has 
remained largely undefined or has continued to change. In my 
view, such constant change is not a recipe for success.
    Second, SBInet requirements have not been effectively 
defined and managed. While the program office has taken 
credible steps to include users in defining high-level 
requirements, it does not ensure that some of the lower-level 
requirements, such as those that govern the common operating 
picture, or COP, are fully defined and approved. Moreover, 
DHS's own assessment of the high-level operational 
requirements, which is in fact what should drive the lower-
level requirements, ensure that some were unverifiable and 
unaffordable.
    Also, alignment among these different levels of 
requirements is largely missing. For example, our analysis 
shows an estimated three-quarters of the requirements for the 
observing systems were not traceable to the higher-level system 
and operational requirements. It showed that the program 
office's oversight of the contractor's efforts to ensure 
alignment were not adequate. Without well-defined and -managed 
requirements, the chances of delivering a system solution that 
performs as intended are not good.
    Third, SBInet testing has not been effectively managed. For 
example, system integration started before there was a test 
plan that described the full set of tests to be performed. It 
began even though the individual component systems that are 
being integrated had not been individually tested to ensure 
that each, in fact, met requirements.
    Further, the overall SBInet test management approach has 
not been adequately defined as it is missing key information 
such as an accurate and up-to-date test schedule and clearly 
defined roles and responsibilities for all the entities that 
are involved in testing.
    All told, this means that the program has not been defined 
and managed that reasonably ensures that promised system 
capabilities and benefits will be delivered on time and on 
budget, or in a way that provides a meaningful basis for 
measuring progress, conducting oversight, and holding DHS 
accountable for results.
    Having said this, however, I am nevertheless cautiously 
optimistic going forward because very recent decisions and 
direction from the Deputy Secretary suggest that this may be 
changing; and in this case, I would have to say that more 
change would be welcome change.
    In closing, let me commend this committee for its oversight 
of SBInet. I would be happy to answer questions that you have.
    Chairman Thompson. Thank you very much.
    [The statement of Mr. Hite follows:]
                 Prepared Statement of Randolph C. Hite
                           September 10, 2008
  Secure Border Initiative: DHS Needs to Address Significant Risks in 
                  Delivering Key Technology Investment
                             gao highlights
    Highlights of GAO-08-1148T, a testimony before the Committee on 
Homeland Security, House of Representatives.
Why GAO Did This Study
    The Department of Homeland Security's (DHS) Secure Border 
Initiative (SBI) is a multi-year, multi-billion-dollar program to 
secure the Nation's borders through, among other things, new 
technology, increased staffing, and new fencing and barriers. The 
technology component of SBI, which is known as SBInet, involves the 
acquisition, development, integration, and deployment of surveillance 
systems and command, control, communications, and intelligence 
technologies.
    GAO was asked to testify on its draft report, which assesses DHS's 
efforts to: (1) Define the scope, timing, and life-cycle management 
approach for planned SBInet capabilities; and, (2) manage SBInet 
requirements and testing activities. In preparing the draft report, GAO 
reviewed key program documentation, including guidance, plans, and 
requirements and testing documentation; interviewed program officials; 
analyzed a random probability sample of system requirements; and 
observed operations of the initial SBInet project.
What GAO Found
    Important aspects of SBInet remain ambiguous and in a continued 
state of flux, making it unclear and uncertain what technology 
capabilities will be delivered and when, where, and how they will be 
delivered. For example, the scope and timing of planned SBInet 
deployments and capabilities have continued to be delayed without 
becoming more specific. Further, the program office does not have an 
approved integrated master schedule to guide the execution of the 
program, and the nature and timing of planned activities has continued 
to change. This schedule-related risk is exacerbated by the continuous 
change in, and the absence of a clear definition of, the approach that 
is being used to define, develop, acquire, test, and deploy SBInet.
    SBInet requirements have not been effectively defined and managed. 
While the program office recently issued guidance that is consistent 
with recognized leading practices, this guidance was not finalized 
until February 2008, and thus was not used in performing a number of 
important requirements-related activities. In the absence of this 
guidance, the program's efforts have been mixed. For example, while the 
program has taken steps to include users in developing high-level 
requirements, several requirements' definition and management 
limitations exist. These include a lack of proper alignment (i.e., 
traceability) among the different levels of requirements, as evidenced 
by GAO's analysis of a random probability sample of requirements, which 
revealed large percentages that were not traceable backward to higher 
level requirements, or forward to more detailed system design 
specifications and verification methods.
    SBInet testing has also not been effectively managed. While a test 
management strategy was drafted in May 2008, it has not been finalized 
and approved, and it does not contain, among other things, a high-level 
master schedule of SBInet test activities, metrics for measuring 
testing progress, and a clear definition of testing roles and 
responsibilities. Further, the program office has not tested the 
individual system components to be deployed to the initial deployment 
locations, even though the contractor initiated testing of these 
components with other system components and subsystems in June 2008.
    In light of these circumstances, our soon-to-be-issued report 
contains eight recommendations to the Department aimed at reassessing 
its approach to and plans for the program, including its associated 
exposure to cost, schedule and performance risks, and disclosing these 
risks and alternative courses of action to DHS and congressional 
decisionmakers. The recommendations also provide for correcting the 
weaknesses surrounding the program's unclear and constantly changing 
commitments and its life-cycle management approach and processes, as 
well as implementing key requirements development and management and 
testing practices.
    Mr. Chairman and Members of the committee, I appreciate the 
opportunity to participate in today's hearing on the Department of 
Homeland Security's (DHS) Secure Border Initiative (SBI). SBI is a 
multi-year, multi-billion-dollar program to secure the Nation's borders 
through enhanced use of surveillance technologies, increased staffing 
levels, improved infrastructure, and increased domestic enforcement of 
immigration laws. One component of SBI, known as SBInet, is focused on 
the acquisition and deployment of surveillance and command, control, 
communications, and intelligence technologies. This technology 
component is managed by the SBInet System Program Office within U.S. 
Customs and Border Protection (CBP).
    My statement summarizes our draft report on the Department's 
efforts to define the scope, timing, and life-cycle management approach 
for planned SBInet capabilities, as well as its efforts to manage 
SBInet requirements and testing activities. This report is based on a 
review of key program-related guidance, plans, and requirements and 
testing documentation, as well as our analysis of a random probability 
sample of system requirements, and our observations of operations of 
the initial SBInet project. In comments on a draft of this report, DHS 
stated that the report was factually sound, and it agreed with seven of 
eight recommendations and partially disagreed with the remaining 
recommendation. The Department also stated that it is working to 
address our recommendations and resolve the management and operational 
challenges that the report identifies as expeditiously as possible. We 
plan to issue our final report on September 22, 2008. Both the report 
and this statement are based on work that we performed in accordance 
with generally accepted Government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
                                summary
    Important aspects of SBInet remain ambiguous and in a continued 
state of flux, making it unclear and uncertain what technology 
capabilities will be delivered and when, where, and how they will be 
delivered. For example, the scope and timing of planned SBInet 
deployments and capabilities have continued to change since the program 
began and remain unclear. Further, the program office does not have an 
approved integrated master schedule to guide the execution of the 
program and the nature and timing of planned activities have continued 
to change. This schedule-related risk is exacerbated by the continuous 
change in, and the absence of a clear definition of, the life-cycle 
management approach that is being used to define, develop, acquire, 
test, and deploy SBInet.
    Further, SBInet requirements have not been effectively defined and 
managed. While the program office recently issued guidance that does a 
good job of defining key practices for effectively developing and 
managing requirements, the guidance was developed after several 
important activities had been completed. In the absence of this 
guidance, the program has not effectively performed key requirements 
definition and management practices, such as ensuring that different 
levels of requirements are properly aligned.
    Finally, SBInet testing has not been effectively managed. While a 
test management strategy was drafted in May 2008, it has not been 
finalized and approved, and it does not contain, among other things, a 
high-level master schedule of SBInet test activities and a clear 
definition of testing roles and responsibilities. Further, the program 
office has not tested the individual system components to be deployed 
to the initial deployment locations, even though the contractor 
initiated testing of these components with other system components and 
subsystems in June 2008.
    Collectively, the above limitations in the scope and timing of 
SBInet's to-be-deployed capabilities, and the ambiguity surrounding the 
schedule and approach for accomplishing these deployments, as well as 
the weaknesses in requirements development and management and in test 
management, introduce considerable risks to the program. As such, it is 
imperative that the Department immediately re-evaluate its plans and 
approach in relation to the status of the system and related 
development, acquisition, and testing activities. Our soon to be issued 
report contains recommendations to accomplish these things. Until DHS 
implements them, the chances that the system will require expensive and 
time-consuming rework, and that it will not meet user needs and perform 
as intended, will increase.
    Today we are also providing a statement for this committee that 
provides observations on SBInet tactical infrastructure (e.g., fencing) 
and the status of human capital and staffing efforts.\1\
---------------------------------------------------------------------------
    \1\ GAO, Secure Border Initiative: Observations on Deployment 
Challenges, GAO-08-1141T, (Washington, DC: Sept. 2008).
---------------------------------------------------------------------------
                               background
    CBP's SBI program is to leverage technology, tactical 
infrastructure,\2\ and people to allow CBP agents to gain control of 
the Nation's borders. Within SBI, SBInet is the program for acquiring, 
developing, integrating, and deploying an appropriate mix of 
surveillance technologies and command, control, communications, and 
intelligence (C3I) technologies.
---------------------------------------------------------------------------
    \2\ Tactical infrastructure includes roads, vehicle barriers, 
pedestrian fences, etc.
---------------------------------------------------------------------------
    The surveillance technologies are to include a variety of sensor 
systems aimed at improving CBP's ability to detect, identify, classify, 
and track items of interest along the borders. Unattended ground 
sensors are to be used to detect heat and vibrations associated with 
foot traffic and metal associated with vehicles. Radars mounted on 
fixed and mobile towers are to detect movement, and cameras on fixed 
and mobile towers are to be used to identify, classify, and track items 
of interest detected by the ground sensors and the radars. Aerial 
assets are also to be used to provide video and infrared imaging to 
enhance tracking of targets.
    The C3I technologies are to include software and hardware to 
produce a Common Operating Picture (COP)--a uniform presentation of 
activities within specific areas along the border. The sensors, radars, 
and cameras are to gather information along the border, and the system 
is to transmit this information to the COP terminals located in command 
centers and agent vehicles, assembling this information to provide CBP 
agents with border situational awareness.
                 sbinet life cycle management approach
    A system life-cycle management approach typically consists of a 
series of phases, milestone reviews, and related processes to guide the 
acquisition, development, deployment, and operation and maintenance of 
a system. The phases, reviews, and processes cover such important life-
cycle activities as requirements development and management, design, 
software development, and testing.
    In general, SBInet surveillance systems are to be acquired through 
the purchase of commercially available products, while the COP systems 
involve development of new, customized systems and software. Together, 
both categories are to form a deployable increment of SBInet 
capabilities, which the program office refers to as a ``block.'' Each 
block is to include a release or version of the COP. The border area 
that receives a given block is referred to as a ``project.''
    Among the key processes provided for in the SBInet system life-
cycle management approach are processes for developing and managing 
requirements and for managing testing activities. SBInet requirements 
are to consist of a hierarchy of six types of requirements, with the 
high-level operational requirements at the top. These high-level 
requirements are to be decomposed into lower-level, more detailed 
system, component, design, software, and project requirements. SBInet 
testing consists of a sequence of tests that are intended first to 
verify that individual system parts meet specified requirements, and 
then verify that these combined parts perform as intended as an 
integrated and operational system. Having a decomposed hierarchy of 
requirements and an incremental approach to testing are both 
characteristics of complex information technology (IT) projects.
 limited definition of sbinet deployments, capabilities, schedule, and 
   life-cycle management process increases program's exposure to risk
    Important aspects of SBInet--the scope, schedule, and development 
and deployment approach--remain ambiguous and in a continued state of 
flux, making it unclear and uncertain what technology capabilities will 
be delivered and when, where, and how they will be delivered. For 
example, the scope and timing of planned SBInet deployments and 
capabilities have continued to change since the program began, and 
remain unclear. Further, the approach that is being used to define, 
develop, acquire, test, and deploy SBInet is similarly unclear and has 
continued to change. The absence of clarity and stability in these key 
aspects of SBInet introduces considerable program risks, hampers DHS's 
ability to measure program progress, and impairs the ability of 
Congress to oversee the program and hold DHS accountable for program 
results.
Scope and Timing of Planned Deployments and Capabilities Are Not Clear 
        and Stable
    The scope and timing of planned SBInet deployments and capabilities 
have not been clearly established, but rather have continued to change 
since the program began. Specifically, as of December 2006, the SBInet 
System Program Office planned to deploy an ``initial'' set of 
capabilities along the entire southwest border by late 2008 and a 
``full'' set of operational capabilities along the southern and 
northern borders (a total of about 6,000 miles) by late 2009.
    Since then, however, the program office has modified its plans 
multiple times. As of March 2008, it planned to deploy SBInet 
capabilities to just three out of nine sectors along the southwest 
border--Tucson Sector by 2009, Yuma Sector by 2010, and El Paso Sector 
by 2011. According to program officials, no deployment dates had been 
established for the remainder of the southwest or northern borders.
    At the same time, the SBInet System Program Office committed to 
deploying Block 1 technologies to two locations within the Tucson 
Sector by the end of 2008, known as Tucson-1 and Ajo-1. However, as of 
late July 2008, program officials reported that the deployment schedule 
for these two sites has been modified, and they will not be operational 
until ``sometime'' in 2009. The slippages in the dates for the first 
two Tucson deployments, according to a program official, will, in turn, 
delay subsequent Tucson deployments, although revised dates for these 
subsequent deployments have not been set.
    In addition, the current Block 1 design does not provide key 
capabilities that are in requirements documents and were anticipated to 
be part of the Block 1 deployments to Tucson-1 and Ajo-1. For example, 
the first deployments of Block 1 will not be capable of providing COP 
information to the agent vehicles. Without clearly establishing program 
commitments, such as capabilities to be deployed and when and where 
they are to be deployed, program progress cannot be measured and 
responsible parties cannot be held accountable.
Program Schedule Is Unsettled
    Another key aspect of successfully managing large programs like 
SBInet is having a schedule that defines the sequence and timing of key 
activities and events and is realistic, achievable, and minimizes 
program risks. However, the timing and sequencing of the work, 
activities, and events that need to occur to meet existing program 
commitments are also unclear. Specifically, the program office does not 
yet have an approved integrated master schedule to guide the execution 
of SBInet. Moreover, our assimilation of available information from 
multiple program sources indicates that the schedule has continued to 
change. Program officials attributed these schedule changes to the lack 
of a satisfactory system-level design, turnover in the contractor's 
workforce, including three different program managers and three 
different lead system engineers, and attrition in the SBInet Program 
Office, including turnover in the SBInet Program Manager position. 
Without stability and certainty in the program's schedule, program cost 
and schedule risks increase, and meaningful measurement and oversight 
of program status and progress cannot occur, in turn limiting 
accountability for results.
SBInet Life Cycle Management Approach Has Not Been Clearly Defined and 
        Has Continued to Change
    System quality and performance are in large part governed by the 
approach and processes followed in developing and acquiring the system. 
The approach and processes should be fully documented so that they can 
be understood and properly implemented by those responsible for doing 
so, thus increasing the chances of delivering promised system 
capabilities and benefits on time and within budget.
    The life-cycle management approach and processes being used by the 
SBInet System Program Office to manage the definition, design, 
development, testing, and deployment of system capabilities has not 
been fully and clearly documented. Rather, what is defined in various 
program documents is limited and not fully consistent across these 
documents. For example, officials have stated that they are using the 
draft Systems Engineering Plan, dated February 2008, to guide the 
design, development, and deployment of system capabilities, and the 
draft Test and Evaluation Master Plan, dated May 2008, to guide the 
testing process, but both of these documents appear to lack sufficient 
information to clearly guide system activities. For example, the 
Systems Engineering Plan includes a diagram of the engineering process, 
but the steps of the process and the gate reviews are not defined or 
described in the text of the document. Further, statements by program 
officials responsible for system development and testing activities, as 
well as briefing materials and diagrams that these officials provided, 
did not add sufficient clarity to describe a well-defined life-cycle 
management approach.
    Program officials told us that both the Government and contractor 
staff understand the SBInet life-cycle management approach and related 
engineering processes through the combination of the draft Systems 
Engineering Plan and Government-contractor interactions during design 
meetings. Nevertheless, they acknowledged that the approach and 
processes are not well-documented, citing a lack of sufficient staff to 
both document the processes and oversee the system's design, 
development, testing, and deployment. They also told us that they are 
adding new people to the program office with different acquisition 
backgrounds, and they are still learning about, evolving, and improving 
the approach and processes. The lack of definition and stability in the 
approach and related processes being used to define, design, develop, 
acquire, test, and deploy SBInet introduces considerable risk that both 
the program officials and contractor staff will not understand what 
needs to be done when, and that the system will not meet operational 
needs and perform as intended.
 limitations of sbinet requirements development and management efforts 
                         increase program risk
    DHS has not effectively defined and managed SBInet requirements. 
While the program office recently issued guidance that is consistent 
with recognized leading practices,\3\ this guidance was not finalized 
until February 2008, and thus was not used in performing a number of 
key requirements-related activities. In the absence of well-defined 
guidance, the program's efforts to effectively define and manage 
requirements have been mixed. For example, the program has taken 
credible steps to include users in the definition of requirements. 
However, several requirements' definition and management limitations 
exist.
---------------------------------------------------------------------------
    \3\ The Capability Maturity Model Integration for Development 
developed by the Software Institute of Carnegie Mellon University, 
defines key practices that are recognized hallmarks for successful 
organizations that, if effectively implemented, can greatly increase 
the chances of successfully developing and acquiring software and 
systems. See Carnegie Mellon Software Engineering Institute, Capability 
Maturity Model Integration for Development version 1.2 (Pittsburgh, 
Penn., August 2006).
---------------------------------------------------------------------------
Program Office Has Taken Steps to Involve Users in Developing High-
        Level Requirements
    One of the leading practices associated with effective requirements 
development and management is engaging system users early and 
continuously. In developing the operational requirements, the System 
Program Office involved SBInet users in a manner consistent with 
leading practices. Specifically, it conducted requirements-gathering 
workshops from October 2006 through April 2007 to ascertain the needs 
of Border Patrol agents and established work groups in September 2007 
to solicit input from both the Office of Air and Marine Operations and 
the Office of Field Operations. Further, the program office is 
developing the COP technology in a way that allows end users to be 
directly involved in software development activities, which permits 
solutions to be tailored to their needs.\4\ Such efforts increase the 
chances of developing a system that will successfully meet those needs.
---------------------------------------------------------------------------
    \4\ This method, Rapid Application Development and Joint 
Application Design (RAD/JAD), uses graphical user interfaces and direct 
end-user involvement in a collaborative development approach.
---------------------------------------------------------------------------
Not All Levels of Requirements Have Been Adequately Baselined
    The creation of a requirements baseline establishes a set of 
requirements that have been formally reviewed and agreed on, and thus 
serve as the basis for further development or delivery. According to 
SBInet program officials, the SBInet Requirements Development and 
Management Plan, and leading practices, requirements should be 
baselined before key system design activities begin in order to inform, 
guide, and constrain the system's design.
    While many SBInet requirements have been baselined, two types have 
not yet been baselined. According to the System Program Office, the 
operational requirements, system requirements, and various system 
component requirements have been baselined. However, as of July 2008, 
the program office had not baselined its COP software requirements and 
its project-level requirements for the Tucson Sector, which includes 
Tucson-1 and Ajo-1. According to program officials the COP requirements 
have not been baselined because certain interface requirements \5\ had 
not yet been completely identified and defined. Despite the absence of 
baselined COP and project-level requirements, the program office has 
proceeded with development, integration, and testing activities for the 
Block 1 capabilities to be delivered to Tucson-1 and Ajo-l. As a 
result, it faces an increased risk of deploying systems that do not 
align well with requirements, and thus may require subsequent rework.
---------------------------------------------------------------------------
    \5\ Interface requirements describe the capabilities that must be 
in place in order to integrate components and products together.
---------------------------------------------------------------------------
SBInet Requirements Have Not Been Sufficiently Aligned
    Another leading practice associated with developing and managing 
requirements is maintaining bi-directional traceability from high-level 
operational requirements through detailed low-level requirements to 
test cases. The SBInet Requirements Development and Management Plan 
recognizes the importance of traceability, and the SBInet System 
Program Office established detailed guidance \6\ for populating and 
maintaining a requirements database for maintaining linkages among 
requirement levels and test verification methods.
---------------------------------------------------------------------------
    \6\ SBInet Requirements Management Plan, January 15, 2007.
---------------------------------------------------------------------------
    To provide for requirements traceability, the prime contractor 
established such a requirements management database. However, the 
reliability of the database is questionable. We attempted to trace 
requirements in the version of this database that the program office 
received in March 2008, and were unable to trace large percentages of 
component requirements to either higher-level or lower-level 
requirements. For example, an estimated 76 percent (with a 95 percent 
degree of confidence of being between 64 and 86 percent) of the 
component requirements that we randomly sampled could not be traced to 
the system requirements and then to the operational requirements. In 
addition, an estimated 20 percent (with a 95 percent degree of 
confidence of being between 11 and 33 percent) of the component 
requirements in our sample failed to trace to a verification method. 
Without ensuring that requirements are fully traceable, the program 
office does not have a sufficient basis for knowing that the scope of 
the contractor's design, development, and testing efforts will produce 
a system solution that meets operational needs and performs as 
intended.
   limitations in key sbinet testing and test management activities 
                         increase program risk
    To be effectively managed, testing should be planned and conducted 
in a structured and disciplined fashion. This includes having an 
overarching test plan or strategy and testing individual system 
components to ensure that they satisfy requirements prior to 
integrating them into the overall system. This test management plan 
should define the schedule of high-level test activities in sufficient 
detail to allow for more detailed test planning and execution to occur, 
define metrics to track test progress and report and address results, 
and define the roles and responsibilities of the various groups 
responsible for different levels of testing.
    However, the SBInet program office is not effectively managing its 
testing activities. Specifically, the SBInet Test and Evaluation Master 
Plan, which documents the program's test strategy and is being used to 
manage system testing, has yet to be approved by the SBInet Acting 
Program Manager, even though testing activities began in June 2008. 
Moreover, the plan is not complete. In particular, it does not: (1) 
Contain an accurate and up-to-date test schedule; (2) identify any 
metrics for measuring testing progress; and, (3) clearly define and 
completely describe the roles and responsibilities of various entities 
that are involved in system testing.
    Further, the SBInet System Program Office has not performed 
individual component testing as part of integration testing. As of July 
2008, agency officials reported that component-level tests had not been 
completed and were not scheduled to occur. Instead, officials stated 
that Block 1 components were evaluated based on what they described as 
``informal tests'' (i.e., contractor observations of cameras and radar 
suites in operation at a National Guard facility in the Tucson Sector) 
and stated that the contractors' self-certification that the components 
meet functional and performance requirements was acceptable. Program 
officials acknowledged that this approach did not verify whether the 
individual components in fact met requirements.
    Without effectively managing testing activities, the chances of 
SBInet testing being effectively performed is reduced, which in turn 
increases the risk that the delivered and deployed system will not meet 
operational needs and not perform as intended.
    In closing, I would like to stress that a fundamental aspect of 
successfully implementing a large IT program like SBInet is 
establishing program commitments, including what capabilities will be 
delivered and when and where they will be delivered. Only through 
establishing such commitments, and adequately defining the approach and 
processes to be used in delivering them, can DHS effectively position 
itself for measuring progress, ensuring accountability for results, and 
delivering a system solution with its promised capabilities and 
benefits on time and within budget constraints. For SBInet, this has 
not occurred to the extent that it needs to for the program to have a 
meaningful chance of succeeding. In particular, commitments to the 
timing and scope of system capabilities remain unclear and continue to 
change, with the program committing to far fewer capabilities than 
originally envisioned. Further, how the SBInet system solution is to be 
delivered has been equally unclear and inadequately defined. Moreover, 
while the program office has defined key practices for developing and 
managing requirements, these practices were developed after several 
important requirements activities were performed. In addition, efforts 
performed to date to test whether the system meets requirements and 
functions as intended have been limited.
    Collectively, these limitations increase the risk that the 
delivered system solution will not meet user needs and operational 
requirements and will not perform as intended. In turn, the chances are 
increased that the system will require expensive and time-consuming 
rework. In light of these circumstances and risks surrounding SBInet, 
our soon-to-be-issued report contains eight recommendations to the 
Department aimed at reassessing its approach to and plans for the 
program--including its associated exposure to cost, schedule, and 
performance risks--and disclosing these risks and alternative courses 
of action for addressing them to DHS and congressional decisionmakers. 
The recommendations also provide for correcting the weaknesses 
surrounding the program's unclear and constantly changing commitments 
and its life-cycle management approach and processes, as well as 
implementing key requirements development and management and testing 
practices.
    While implementing these recommendations will not guarantee a 
successful program, it will minimize the program's exposure to risk and 
thus the likelihood that it will fall short of expectations. For 
SBInet, living up to expectations is important because the program is a 
large, complex, and integral component of DHS's border security and 
immigration control strategy.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions that you or other Members of the committee may 
have at this time.

    Chairman Thompson. I thank the witnesses for their 
testimony. I remind each Member that he or she will have 5 
minutes to question the panel.
    I now recognize myself for the first set of questions, and 
I guess we will start with SBInet.
    Mr. Hite, since you had the responsibility for looking at 
the Project 28 situation, is it your suggestion that original 
procurement and the ultimate product that was delivered was, in 
fact, what the Government expected or contracted for?
    Mr. Hite. Mr. Chairman, I hate to punt on that, but to be 
honest with you, I don't have a definitive answer to that 
question. I know it was 8 months late, I know a lot of things 
had to be corrected on it. I don't know exactly what the--what 
kind of functionality was delivered in P-28, to compare that to 
the contractual provisions to be able to lay out for you what 
the gaps were.
    Chairman Thompson. Well, could you help me understand 
whether or not the procurement, in your professional opinion, 
was done where certain things could be measured at the end of 
the product?
    Mr. Hite. My understanding in having looked at the 
contractual documents in that case was, the requirements were 
not defined in a way that would permit meaningful measurement 
as to whether or not the deliverables from the contract 
actually lived up to the expectations. That, to me, would be a 
fault in the expectations themselves as not sufficiently 
defined to permit that kind of determination.
    Chairman Thompson. To the extent possible, do you know 
whether or not it has been corrected?
    Mr. Hite. I do not know the answer to that. All I know is 
that the P-28 has been accepted and is operating.
    Chairman Thompson. Is it operating according to whatever 
the contractual standards in the procurement were?
    Mr. Hite. I would have to go back to my response to the 
first question, which is, I don't have that information to be 
able to delineate for you what those potential gaps are.
    Chairman Thompson. Mr. Stana, can you help the committee on 
that?
    Mr. Stana. Yes.
    I think P-28 was supposed to deliver certain operational 
capabilities. It was supposed to be able to identify 
incursions. It was supposed to be able to classify threats.
    When we were down in the sector about 2 months, 3 months 
ago, we rode with agents. We tried to turn the system on. It 
took us 45 minutes to get the system up and running. The signal 
would not go into the vehicle. The camera range was limited. 
The ability to identify and classify different targets was 
limited. So I would have to say that, at least as far as 
expectations go, it did not meet expectations.
    Part of the issue that you are raising with Mr. Hite is 
that the contract was loosely worded, and so it was tough to 
hold the contractor to what amounted to expectations rather 
than the letter of the contract.
    Chairman Thompson. So--and I'm saying for the benefit of 
the committee, we were told that this was not a complicated 
procurement, that the technology was off-the-shelf technology, 
and that once it was completed, a number of those items, from 
an expectation standpoint, could be met.
    I think part of our oversight responsibility, as a 
committee, is to see whether or not taxpayers are getting what 
they are paying for. So to the extent that Chairman Carney and 
Chairman Sanchez have been diligent in their oversight 
responsibility, I think it is because we have had significant 
investment in this product; and we would like a product that 
works.
    Mr. Ahern or Mr. Basham, tell me whether or not the items 
that Mr. Stana referenced in terms of the system being turned 
on and operable, have they been corrected?
    Mr. Basham. Well, first of all, the contract that was put 
into place was a fixed price contract. It was a proof of 
concept to take off-the-shelf technology, integrate that 
technology, and get it out as quickly as we could in order to 
allow us to get our hands around it, get an understanding of 
what works and what does not work, and then to further that 
technology and develop that technology so that we could, in 
fact, use it to get operational control.
    So the proof of concept was the purpose of that first 8 
months; and as you know, we did not--in fact, were not able to 
deliver that on the date that we had anticipated.
    But we learned a great deal from that. We learned what 
works and what does not work. As an example--let me just give 
you an example: The Israeli cameras that were brought in in 
that first phase, they met all the specs. They met all the 
requirements. But when you tried to integrate that camera with 
other technologies and then, through a satellite, beam that 
image, it wasn't sufficient. But we learned there. So we had to 
go back out and to look at other technologies to do that.
    We have been learning throughout this whole process. Again, 
this is only a piece of what we have been doing on the border.
    Are we doing it better today? I believe we are doing it 
better today.
    Chairman Thompson. So it is your testimony that rather than 
a procurement that we could expect a product, it was something 
that we spent money to learn on?
    Mr. Stana. Mr. Chairman, to add what the Commissioner 
stated, I think certainly, as far as the proof of concept, that 
is exactly what P-28 was. It was to be a learning lab. 
Unfortunately, some of the language in the contract might have 
given the impression it was going to give us full operational 
capability. It was never meant to give us the full capabilities 
that we would need.
    That is a communication problem on our part, clearly.
    Chairman Thompson. So the information we received as a 
committee was not, in fact, correct?
    Mr. Stana. I wouldn't say that, because I know in the last 
hearing we had, I believe in February of this year, when we 
talked to you about this issue, we realized that we needed to 
continue to enhance P-28. That is what we will continue to do, 
to evolve it to its next stages when it is not our intention 
nor was it ever our intention to replicate P-28 in every mile 
at the border that needed to have the technology laydown while 
we are going through the evolutionary process of developing the 
technology as we go forward.
    Chairman Thompson. But I think for our men and women who 
are utilizing the P-28 equipment, they should at least have a 
product that works.
    Now, we have heard testimony that it takes 45 minutes doing 
that test for it to become operational. Obviously there is 
something crossing the border; 45 minutes is a long period of 
time.
    Now, the last hearing we had, we were told that 95 percent 
projection rate on the cameras was in the contract. Can you 
tell us whether or not we have 95 percent projection on the 
cameras as of this date?
    Mr. Basham. Let me just say today, I believe, had we been 
allowed to bring the Chief of the Border Patrol with us today, 
I think you would hear him say that that area in Sasabe is 
fully operational and that system is delivering tremendous 
value to the Border Patrol in gaining control of the border.
    Yes, we recognize that we--I think we did not manage 
expectations well in that first project. I don't disagree with 
you. We could have communicated better. I apologize to you for 
that. But I am telling you, we have learned and what we have 
there now, I think the Border Patrol would tell you is, in 
fact, working.
    Chairman Thompson. I yield 5 minutes to the Ranking Member.
    Mr. King. Thank you, Mr. Chairman.
    Commissioner Basham, Deputy Commissioner Ahern, it is my 
understanding that CBP is intent on realigning the remaining 
funds with the SBInet account to complete the border fence, and 
they could possibly be forced to reprogram other CBP accounts. 
If we are forced to operate under a CR for 2, 3 or 4 months, 
how will that impact what you intend to do? Or will it?
    Mr. Basham. Well, quite literally, if we are forced into a 
CR and--we are going to be out of business unless we get some 
relief in the 2009. We are out of money and operations will 
stop.
    I will let Jay elaborate on that. He has been working very 
closely with that issue.
    Mr. Ahern. As we started to see the escalation of costs 
with the tactical infrastructure, the fence, we certainly did 
not forecast that the economy would realize some of the impact 
it has had with fuel costs, labor costs, material costs, 
competing vendors for a lot of the construction that is going 
on in the Southwest region.
    They are not feeling the same type of national impact.
    Mr. King. Does that include fuel costs?
    Mr. Ahern. Absolutely, it is a significant driver.
    So, as we have seen, some of these miles come in much more 
expensive than we initially projected when we were looking at a 
rough order of magnitude. A year ago, after we completed PF-90 
project, we had to go ahead and make a conscious decision 
within the Department--and we did make the determination--that 
the priority for our Department was to go ahead and put the 
tactical infrastructure that gives us the best capability in a 
more immediate fashion to give operational control to our 
agency. That is why we are continuing to go ahead and deploy 
the tactical infrastructure to meet our goal of hitting 670 
miles, as required, by the end of this year.
    We needed to continue to keep contracts moving, so we did 
go ahead and reprogram, or request to reprogram, for additional 
funds, and that present to Congress just yesterday was to go 
ahead and move the moneys into tactical infrastructure so we 
can continuing with building the tactical infrastructure as 
necessary for us to secure the borders.
    If we do not also have access to moneys early in October, 
in effect, some of the projects that remain to be done for 
tactical infrastructure will come to a halt. We will have 
exhausted the money we have. Furthermore, as we project right 
now, based on what we had to go ahead and realign within our 
bids for our account--our border security fence and 
infrastructure and technology account--basically the contracts 
we currently have for SBInet will be done with by the end of 
October. We have no money to go beyond that unless we get a 
fiscal year 2009 appropriation.
    Mr. King. Thank you.
    To switch the topic slightly, you heard some people telling 
you what you should be doing you are not doing, but DOD has 
deployed electronic surveillance systems and virtual fence 
technologies throughout the world. What extent, if any, of 
cooperation, collaboration is there between DHS and DOD as far 
as that type of technology?
    Mr. Basham. We have been doing a lot of collaboration 
with--of course, the Army Corps of Engineers we have been 
working with; but in terms of surveillance systems, I cannot 
say that we have had that much contact with DOD. It is a 
recommendation and a suggestion that we are going to follow up 
on and see what they are doing in these areas, recognizing that 
it is somewhat of a different mission set. But if we can learn 
from technology that is being developed and deployed by other 
Government agencies, we will certainly take a look at what they 
are doing.
    Mr. Stana. If I can add to the Commissioner's answer, 
during the source selection process, there was no company that 
actually presented capabilities, whether they had provided 
solutions to DOD or otherwise. Certainly we have done some 
evaluation of the DOD and some of the capabilities and the 
contractors; and in fact, the recent Lincoln lab site we have 
had for capabilities showed us there is really no adaptable 
solution for us right now. We need to continue to learn about 
the different component parts as part of the hardware, and we 
need to do the systems engineering to actually put the fully 
completed system available for deployment.
    We have that development cycle going forward. We have added 
an additional layer for field testing before we actually put it 
out into the operational environment after the first of the 
calendar year.
    Mr. King. In the final 40 seconds, what can you tell us 
about the full deployment of SBInet along the northern border?
    Mr. Basham. I know that there has been great discussion and 
actually a feeling that we have turned our back on the northern 
border, and quite frankly, that is not accurate. We have now 
opened up our fifth air wing up there. We have increased, 
tripled the size of the Border Patrol on the northern border. 
We have enhanced our technology at our ports of entry through 
e-Manifest. Witty is going to provide us with a great tool up 
there. We are deploying our UAS systems up there. The predators 
are on the northern border. We are working very closely with 
our Canadian counterparts from an intelligence perspective, an 
infrastructure perspective; working very closely with the Coast 
Guard in integrating our systems and our assets on the northern 
border. There is a great deal of effort going on in the 
northern border.
    The Border Patrol--and I will let Jay explain there was a 
northern border demonstration project that was to be awarded 
for $20 million for SBI and SBInet. We decided that that money 
right now would be better utilized by the Border Patrol in more 
traditional types of technology.
    Perhaps, Jay, you can give a little bit of oversight.
    Mr. Ahern. Just to clarify that last part, as the 
commissioner stated, we did have $20 million--it was $19.7 
million that was actually part of the language--from the 
appropriators on the House and the Senate side to do a northern 
border demonstration project. As we get into the end of this 
year and realized the increase in the tactical infrastructure 
cost, we have actually realigned that money in for this 
year's--put money on contracts for tactical infrastructure.
    That does not require a reprogramming; it just has to be 
reflected in our expenditure account. But that is important for 
us again because I think the key thing we need to realize on 
the tactical infrastructure, as we see these costs continuing 
to rise, the quicker we get the money on contract and lock in 
our costs, the better we will be in the long term as we 
continue to see the investment values continuing to go up 
higher based on current projections. So we thought that was a 
prudent move at this point in time.
    Chairman Thompson. Ranking Member King talked about the CR.
    Mr. Ahern, can you provide the committee in writing this 
request that you say that if 2009 funds are not available by 
October 1, then there is a problem going forward with any of 
this?
    What I also want to know is whether or not you are in the 
process of reprogramming other moneys to compensate for October 
1 not being approved. I want to make sure we get all of the 
information out. All I need is, get it to the committee in 
writing.
    Mr. Ahern. We have sent it as part of the overall 
reprogramming that went to Congress yesterday, so we will be 
able to provide what was sent to the appropriators both in the 
House and Senate.
    Chairman Thompson. So you won't run out of money, you are 
just reprogramming existing money?
    Mr. Ahern. Well, it does speak to the issues as far as what 
we needed to reprogram at this point. We also can speak to your 
issue specifically with how far we project out what we have in 
our technology account that we are able to put on contract to 
fund what we have with the development of SBInet; and our 
current projections will show that portion will run out at the 
end of October absent the 2009 funds.
    We can certainly provide our analysis to you on that.
    Chairman Thompson. Thank you.
    I yield 5 minutes to the gentlelady from California, Ms. 
Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you, gentlemen, again for being before us. As you 
know, I chair the subcommittee that oversees SBInet and border 
issues. Over the last Congress we have held about six oversight 
hearings. We have also gone as a committee to Project 28 in 
Sasabe, Arizona. I have chaired many of those hearings with Mr. 
Carney because he has the Oversight and Investigations 
Subcommittee.
    The first thing I would like to say is--just make a comment 
about the whole issue of communication that the Commissioner 
brought up because I recall on--I believe it was June 7 I asked 
a specific question of whether the original deadline for 
SBInet, for Project 28, would be met, which was just 1 week 
later on June 13.
    On June 7, I was told and reassured by contractors, 
everybody from Homeland, et cetera, that would be delivered and 
there was no problem with that project's being delivered on 
time; and less than 24 hours later--in fact, about 12 hours 
later--I received a letter across my desk on June 8 telling me 
that you weren't going to meet the deadline.
    I think that is bad communication. So to say that you 
didn't do a good job with communication--you didn't do a good 
job with communication. I hope those kinds of surprises aren't 
going to continue on with this.
    Mr. Carney's committee, I think, is really the committee 
that takes a look at everything that has happened in the past 
and tries to get an accounting of that; and I hope that he will 
continue. I want to help him as much as possible to make sure 
that we do get a good accounting of everything that has 
happened with these projects.
    But I think that my committee, in particular, is more 
focused on how do we really get this done. That is the question 
that--some of the questions that I have this morning. Because, 
you know, there is a lot of feeling in America that maybe all 
we should do is build a wall and maybe put some machine gun 
people out there and build a long pathway sort of reminiscent 
of Checkpoint Charlie and just shoot at people as they try to 
come over a wall. I don't really think that is where Americans 
are or that that is where America really wants to be.
    So this whole issue of the virtual wall or the virtual 
fence or how do we, in fact--and we need to control all our 
borders not just the southern border, all our borders, but this 
is a piece of it. That is why we did this demonstration project 
whether it was just to check out different technologies or 
whether it was to be more operational, as some of us had 
thought or believed the contract did say.
    We need to make sure that, in fact, we can use this stuff 
and that this stuff can be operational. I know we have done 
Project 28, and now we have got Ajo; and we have gone back and 
we are going to spend some more money on the same spot to try 
to put this all up.
    I have two questions. Where do you really think we are? It 
is for all of you: Where do you really think we are on having 
tested all of this and figured out how we can really configure 
something that will, to a large confidence level, allow us to 
see incursions into our country? That is the first question.
    The second question is back to, is it really saving us 
money to do it that way? Because there has always been the 
question of whether it takes just as many people to man that 
type of a system anyway, have we gotten any closer to figuring 
out the allocation of what it is really going to cost us in the 
long run?
    The third question I have is, how are we doing this 
transition? Because we have a lot of knowledge. I mean, you 
know, failure also brings knowledge to people; and we have a 
lot of people who have knowledge now of what hasn't worked or 
what has or what we need to try or who we can trust or what we 
can't do. How does that transition to a new President and a new 
administration and some movements? Some of you won't be before 
our committee maybe in the future. How is that being worked 
through?
    So those are the three questions I have.
    Mr. Basham. Thank you for that question. I do want to say 
that going back to the origin of SBI, we are not talking about 
just SBInet, as you know. It is a combination of 
infrastructure; it is a combination of proper staffing and 
technology.
    The Border Patrol, as the operational component charged 
with the responsibility of securing our borders between the 
ports of entry, literally has walked that Southwest border mile 
by mile. They have, as operators, come back with the 
requirements: where technology will work, where infrastructure 
will work, how many additional agents are needed to support 
that infrastructure and that technology. We, I believe, have a 
strategy to go forward to get that border secured by applying 
all of those lessons learned.
    As you have said, yes, we have had some failures, but we 
have also had some tremendous successes. If you look at what is 
being done on the Southwest border, there has been a tremendous 
amount of good work done there; there has been a lot of 
learning through this process.
    In terms of the technology, I think we have learned 
tremendous--gotten tremendous information from P-28 that we are 
now carrying forward into Tucson and into Ajo as the next steps 
along this process. I believe we are poised to deliver a good 
message to the next administration on where we have come and 
what we have learned and what our strategy is in going into the 
future.
    We are establishing requirements. We are working very 
closely with GAO. As you heard during your testimony that we 
have taken seven of the eight recommendations that they 
presented to us, because it was the right thing to do. This 
committee has provided tremendous oversight to us in suggesting 
we slow down and not charge forward and put something in the 
field that we offer to an agent, a Border Patrol agent, that he 
puts in the glove box because it simply does not work; that is 
just not acceptable to us, and we aren't going to put something 
out there that doesn't work. We feel we are going about this in 
a very prudent and judicious manner.
    Ms. Sanchez. Could I just have Mr. Stana comment on some of 
this? I would actually like all of you to comment on it in 
writing, the three questions I have. I know we are really 
pressed for time, but----
    Mr. Stana. I think maybe both of us have something to 
contribute. But very quickly, where are we now?
    I think the CBP has acknowledged that some mistakes were 
made, defining requirements, getting the Border Patrol 
involved, to understand what they really need pre-testing. What 
is left of Project 28 is not going to go forward, so let's just 
call it lessons learned. As far as what needs to be, I think 
that is still a bit of an open question.
    Hopefully, the requirements defining process is taking away 
some of the more bells-and-whistles-type solutions, that maybe 
isn't really needed, away from the project and getting back to 
the true Border Patrol needs.
    What is next, not only with an administration change, there 
is an opportunity, but if CBP is not satisfied with the 
solution that Boeing is putting forward; their 3-year contract 
will be up in 2009 I believe, and there is an opportunity to go 
in a different direction if they think that is the way to go.
    Mr. Hite. Congresswoman, if I could, I believe I could 
rephrase your question, the two questions.
    The first one I will address is your second question: Are 
you doing the right thing? Is this solution you are pursuing 
the cost-effective, right solution to pursue? Is it worth the 
money? Frankly, I have never seen anything that answers that 
question.
    That is an economic justification for the investment that 
you are pursuing: Will the value, will the benefits, will that 
exceed the costs that we are putting into this? I have never 
seen it. In order to have that, you have to have some 
definition around what you are doing.
    You also need that definition to answer your second 
question, which is, where are we? You have to have a baseline 
against which to measure where you are. The point is, the 
baseline is not there. So you can hear a lot of things about 
where we are and what is going on; but in fact a measurable 
baseline to say, are we making progress, are we making progress 
along a path that we intended, the answer is, ``don't know.''
    Ms. Sanchez. Thank you.
    Thank you, Mr. Chairman.
    Mr. Ahern. If I may indulge for just a moment, because I 
think it is important just to add this, and we certainly will 
answer your questions in writing as well.
    First off, who will be before you here as the end-of-year 
transitions in Government? That is one of the reasons why the 
Commissioner brought me in here today because I will certainly 
be here through the next year, as well, for the continuity.
    I think the important thing also is on the requirements 
that we have currently defined, we learned a lot from the 
SBInet and the P-28 area; and that is why we have gone to the 
point of doing the RAD and JAD, the rapid application 
development and the joint application development, in a 
laboratory environment in Mesa, Arizona, with the contractors 
and the Boeing people so we can actually develop the software 
as we go forward. That is why we brought on the systems 
integration laboratory in Huntsville, Alabama. That is why we 
also added an additional proving ground in Playas, New Mexico, 
so we can actually demonstrate it before we take it out into 
the operational environment as we go forward.
    Finally, just recently, the latter part of August, we had 
our investment review board with the Deputy Secretary which he 
confirmed to us just this week with an acquisition decision 
memorandum which lays our path forward, going forward. We 
actually laid down what the image is going to be for three of 
our nine Southwest border sectors, and that is the combination 
of what the personnel will be, what the environmental barriers 
will be as we get out there, rivers, mountains, what we will 
have for tactical infrastructure, what we will have for air 
assets as well as virtual fences as we go forward.
    So I think we are on a good path going forward, but we will 
be happy to give you that in much more detail in writing.
    Ms. Sanchez. Great.
    Chairman Thompson. I will yield 5 minutes to Mr. Dent--Mr. 
McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    Mr. Hite, I think you nailed it on the head when you said, 
``where are we'' is the question and the answer is ``we don't 
know.'' My constituents have a lot of questions about not only 
the virtual fence, but the physical fence.
    You know, we passed all this last Congress and provided the 
funding. It is hard to get a straight answer in terms of where 
are we with this virtual fence and physical fence. I know about 
370 miles of physical fence is being built.
    So, Mr. Ahern and Commissioner, if you could answer for me, 
where are we with these two components that are key on the 
border? I am talking about the Southwest, because that is where 
my home State of Texas is, on that border. Virtual versus 
physical, where are we with those two and when are they going 
to be completed?
    Mr. Basham. In terms of the physical fence, as the Deputy 
mentioned earlier, we have a reprogramming request in at this 
point to converge some funds to the physical fence that we are 
building. We fully expect, if we are successful in getting the 
reprogramming effort through and if we resolve some of the 
legal problems and real estate problems that are involved, that 
by the end of December 2008, we will either have completed or 
under construction or under contract 670 miles of fence.
    Do we have challenges? We certainly do have challenges. We 
are working very hard to get beyond those issues. But we expect 
to have, as I mentioned, those three components by the end of 
2008.
    In terms of the virtual fence, as you know, we have delayed 
the deployment of the virtual fence in Tucson, the Tucson-1 and 
Ajo-1 projects, to slow that down and--as recommended by the 
Congress, recommended by GAO that we do not go forward in both 
testing and deployment at the same time--do the testing, prove 
that it works, then deploy.
    We will start to deploy Tucson-1 probably right after the 
first of the year. Then following that, our analysis of the 
effectiveness of it, will begin on Ajo-1. But as I have said, 
we are just not going to deploy something out there to meet 
timelines. We are going to deploy it when it is ready and when 
it is ready and can add value to the Border Patrol and the 
Border Patrol's mission.
    Mr. McCaul. That is understandable.
    Just so I understand, you have 670 miles of physical 
fencing that will be completed by December 2008?
    Mr. Basham. As I say, it will either have been completed 
under contract or under construction or under contract by the 
end of 2008.
    Mr. McCaul. Specifically, the Texas-Mexico border, how much 
on the Texas-Mexico border?
    Mr. Ahern. I can't gave you the precision on the miles 
right now. I will be happy to give you the segment-by-segment, 
and what that adds up to within the Texas-Mexico border. That 
is where we are having some of our most significant challenges 
with real estate acquisitions. We have over 200 acquisitions 
that are actually before the court at this point in time that 
we are waiting to get orders of possession going forward. So 
that is a factor that is out of our control going forward.
    The judge has been very deliberate with releasing orders of 
possession, a handful each week. We need to continue to get 
that pace picked up so we can actually get orders of possession 
so we can begin with the construction period. So that is a 
factor.
    We can give you the precision of each one of the miles that 
are out there within the Texas border and those which we are 
actually having the real estate challenges.
    Mr. McCaul. I know the challenges have slowed down the 
process, but that portion on the Texas border seems to be not 
the highest priority. It seemed like it was going up more in 
California, Arizona, but is that given the priority now?
    Mr. Ahern. I would submit that it has been always been a 
priority for us. We certainly ran into a lot of unique 
challenges in the Texas border because of the multiple 
landowners. We have again hundreds of landowners that actually 
own a lot of that land versus a lot of the Federal land and 
some of the singular owners that actually own more over in the 
California and Arizona environments.
    Certainly, we run into--Texas, we have multiple owners with 
very small segments and slivers along the border; and frankly, 
some of the Texas court records have been a challenge for us as 
well, because some of these go back 40, 50 years where we can't 
identify the original court records that have actually the 
description of the properties, and we can actually get out 
there with the Corps of Engineers and walk each inch of that 
border on that particular segment. We are finding some of the 
landowners had more land than they thought they had.
    Mr. McCaul. On the visual fence, is there coordination with 
the Department of Defense, because they have a lot of expertise 
in this area?
    Last, Operation Jump Start ended, the National Guard was 
pulled off the border, the Governor of my State, Governor 
Perry, has sent a letter requesting that the National Guard 
stay down there. They provided, I think, a very high value to 
helping secure the border and freeing up Border Patrol's time 
down there; and frankly, from a cost standpoint, I think it has 
worked very well.
    If you would, comment on those two.
    Mr. Basham. I will comment on the National Guard 
deployment, Operation Jump Start. They were a tremendous asset 
to us for that 2-year period that they were deployed, which 
gave the Border Patrol, CBP, the opportunity to hire and deploy 
Border Patrol agents back to the border.
    There have been significant reductions over these past 2 
years in terms of apprehensions, which is a measure for us. In 
Arizona alone, the Tucson sector in 2005, there were 577,000 
apprehensions. Year-to-date, there are 302,000. That is a 
decrease of 48 percent in apprehensions. So the effect of 
having the Guard there and their support as we went through 
this hiring phase was tremendously successful.
    This is not ended, our work with the Guard. We have been 
working with the Guard for years, and we will continue to work. 
They have supported us and will continue to support us as we go 
into the future.
    Mr. McCaul. The coordination with DOD and the virtual 
fence, is that taking place?
    Mr. Ahern. As I stated--I believe Ranking Member King asked 
the question before you came in, but certainly when we actually 
did the initial contracts, some of the bidders that had 
experience with the Department of Defense did not meet the 
specifications.
    Had we dealt directly with the Department of Defense? Not 
to the level, I think, that this Congress would like. I know 
one of the things we will be looking at as we go forward is 
more engagement with them.
    Certainly, some of the applications of the technology that 
has worked in the DOD environment has not been adapted to the 
particular environments we have. We do have some different 
challenges, and certainly it is not a one-size-fits-all 
approach, which is some of the challenge we found even with 
doing the initial testing in P-28.
    So we need to make sure we adapt the right solution of 
hardware and software as we go forward for our concept of 
operations.
    Chairman Thompson. With respect to DOD, can you provide the 
committee with any and all contact you had with DOD in 
reference to this procurement that Mr. McCaul is talking about?
    Mr. Ahern. We will certainly be happy to provide it.
    Chairman Thompson. For the sake of the committee, we have 
the memorial service on under way right now for Congresswoman 
Stephanie Tubbs Jones. I am actually going to indulge this 
committee that we recess and reconvene sometime next week if it 
is agreeable with all of us, and we work it out with witnesses 
and what have you.
    This was totally unexpected. The hearing was set, and then 
the memorial service came in conjunction. But I am trying to 
get some consensus.
    Mr. Pascrell.
    Mr. Pascrell. Mr. Chairman, of course, I just want to say, 
before we convene, just a few quick things and that is that I 
am very, very disappointed that the opening shot across the bow 
here was that we were going to be abusive. The word ``abusive'' 
was used. I want to know if the Homeland Security feels that 
the GAO has been abusive because they have been honest about 
the assessment.
    I mean, this is a joke, but it is not funny. This is a 
joke, but it is not funny; and the quicker we get some 
assessment here without sending political jibes across the 
floor--it is unnecessary, it is uncalled-for, uncalled-for.
    I want the words taken down. What do you know about that?
    Chairman Thompson. Well, I mean, obviously I heard the 
comments too, Mr. Pascrell. It is not the witness' opinion in 
the testimony as to how we style the committee hearing; it is 
our job. I did not make a reference to it, but clearly, it was 
made note of, likewise.
    We will recess the committee and reconvene next week, 
working it out with the witnesses.
    [Whereupon, at 11:08 a.m., the committee was adjourned.]


 MISMANAGEMENT, MISSTEPS, AND MISSED BENCHMARKS: WHY THE VIRTUAL FENCE 
                        HAS NOT BECOME A REALITY


                                PART II

                              ----------                              


                      Thursday, September 18, 2008

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Dicks, Norton, Lofgren, 
Etheridge, Cuellar, Carney, Green, Pascrell, Dent, and Brown-
Waite.
    Chairman Thompson. The Committee on Homeland Security will 
come to order. The committee is meeting today to resume the 
hearing entitled, ``Mismanagement, Missteps and Missed 
Benchmarks: Why the Virtual Fence Has Not Become a Reality.'' 
This hearing was recessed on September 10, 2008, so that 
Members could attend a memorial service for our late friend and 
colleague, Representative Stephanie Tubbs-Jones.
    However, I want to express on the outset my dismay that our 
witnesses from the U.S. Customs and Border Protection, 
Commissioner Basham and Deputy Commissioner Ahern have declined 
to join us. I would note that the committee attempted to 
accommodate their schedules by offering an alternate date to 
continue the hearing.
    This Congress has provided the Department of Homeland 
Security and Customs and Border Protection billions of dollars 
to help secure America's borders. We have a responsibility on 
behalf of the American taxpayers to ensure that Customs and 
Border Protection is spending those funds wisely in its secure 
border initiatives. Likewise, Mr. Basham and Mr. Ahern had a 
responsibility to make themselves or a designee available to 
testify before the committee today on this crucial issue, 
particularly given the Department's abysmal track record with 
border security technology projects.
    With that said, I would like to welcome back our witnesses 
from the Government Accountability Office, Mr. Richard Stana, 
who is the Director of Homeland Security and Justice Issues; 
and Mr. Randolph Hite, who is the Director of Information 
Technology Architecture and Systems at GAO, and as most of you 
know, a frequent guest before this committee. We appreciate 
them joining us today to share their expertise on the secure 
border initiative and SBInet with the committee.
    When the committee recessed on September 10, 2008, the 
witnesses had summarized their testimony and Members had begun 
questioning the witnesses. The Chair will now continue 
recognizing Members for questions in accordance with our 
committee rules, first, recognizing Members who were present on 
September 10, 2008, alternating between majority and minority 
Members. Any Members present today who were not present on 
September 10, 2008, will then be recognized in order of their 
arrival today.
    The Chair now recognizes the gentleman from Texas, Mr. 
Cuellar.
    Mr. Cuellar. Thank you, Mr. Chairman.
    Well, I had some questions for the other witnesses, so I 
will ask the questions and see if you all can help me on this. 
I know there have been some issues with the virtual fence, and 
I think we have gone over that; but do you all have any 
information on some of the projects that Homeland is doing that 
I think are good, like the cane eradication? Like, in the 
Laredo area, they finally started a pilot program.
    I added an amendment on an appropriations rider back 3 
years ago, and it is finally moving, which is good. Zero 
tolerance, also; I don't know what term they used. But on that 
project also when somebody comes in across a river, from across 
a river, instead of just being sent back, they spend a little 
bit of time in one of our hotels with bars, and--those type of 
projects.
    The levee system that we set up in the Valley also, could 
you all elaborate a little bit? Because I know there are some, 
but I want to talk about some of the things that I think they 
are doing good.
    Mr. Stana. Okay. Let me start with the cane eradication 
project.
    As you know, the project is in its pilot stage. They have 
tested three means of eradication using agricultural means, 
insect means. The pilot that they are considering fielding now 
and is being--it is at a stage where they have to check with 
Canada and Mexico on agricultural issues. But that project 
involves a fly, a wasp or a hornet and a small little worm, a 
nymph of a bug. The fly and the wasp eat at the plant above the 
ground level, the nymph, or the little worm, below the ground 
level.
    It has proven somewhat successful in the test, indoor 
testing. It is supposed to not go after indigenous plants, only 
this cane, which I think originated in a foreign country 
anyway. So they haven't set a date for outdoor testing, but 
they do have to get the approvals to do so, because obviously 
the flies and the wasps are going to cross the river and they 
need to make sure that the Mexican authorities are well aware 
and approve it.
    With regard to the zero tolerance, I understand the 
program. We haven't done work on that, so maybe we could 
arrange to do something on that if you still have an interest 
in that.
    As far as the levee goes, down in the Rio Grande Valley 
they had 97 property owners that did not want to sell, and the 
Federal Government was inquiring through condemnations. Twenty 
of those have been basically acquired pending a final court 
date to transfer the property. There are 77 other owners that 
the land has not yet been taken over, and if that isn't done by 
the end of this month, then all bets are off on finishing 
fencing by the end of the year, which is the goal.
    One other point that I would make, in following the levees 
with the wall, it is going to be a concrete wall, depending on 
where, say, 15 to 20 feet high, there are still some issues in 
construction. But being that that is essentially a Government 
property, the kinds of land acquisition issues aren't there.
    There are some issues on rights-of-way and easements, but 
that has begun.
    There is difficulty getting concrete there. Cemex, the 
Mexican concrete company, said they would not provide the 
concrete for those kinds of projects, so some of that concrete 
has to be brought down from Houston and as far away as 
Colorado. So it is proceeding, but whether it is going to be 
done by the end of the year is going to be challenging.
    Mr. Cuellar. If I could ask--Mr. Chairman, if I could ask 
the GAO if they can provide some information on at least the 
two issues.
    One issue is on the cane eradication. As you know, when you 
were down there, there are were some folks--there are three 
ways of cleaning up the cane--mechanical, herbicides and then, 
of course, the one that I have a little concern about is 
putting a bug there--a foreign, I think it was a Spanish bug.
    Mr. Stana. Yeah, they were; they were Spanish.
    Mr. Cuellar. My only problem is, what happens if that bug 
decides to change its diet. I think if you talk to any of the 
private owners that are there, they are concerned about that; 
and certainly the other side is concerned about it.
    But, Mr. Chairman, if there is a way the committee could 
ask for a little bit more information on that.
    On the zero tolerance, because the zero tolerance, in my 
opinion, has worked. There has been a deterrence effort on 
that. In fact, the places that they have added the zero 
tolerance--they started in Laredo last year--the numbers of 
folks coming across has slowed down. In fact, the crime level 
has also slowed down according to some of the numbers that we 
have seen.
    So I would ask you to, if it is okay with the Chairman, if 
you can provide us a little bit--I don't know how formal, but a 
little bit of background or information on those two issues.
    Chairman Thompson. Well, to the extent that you have the 
information----
    Mr. Cuellar. Right.
    Chairman Thompson [continuing]. Please provide it to the 
committee.
    Mr. Stana. I would be happy to do that.
    If the information we have isn't as much as you would like, 
we could perhaps arrange to do more work on that particular 
program for you.
    Chairman Thompson. If we need to send a formal request to 
you, we would be happy to do that also.
    Mr. Stana. We can discuss that with your staff.
    Mr. Cuellar. All right.
    Thank you Mr. Chairman. Thank you very much.
    Chairman Thompson. Thank you.
    We welcome the gentleman from Pennsylvania, Mr. Dent, for 5 
minutes.
    Mr. Dent. Thank you, Mr. Chairman. I just wanted to say 
very briefly that I see that we have two empty chairs at the 
witness table today. For the record, I would like to point out 
that top officials from CBP are unable to testify today because 
they are participating in a high-level transition planning 
meeting at the Department of Homeland Security. As we all know, 
that transition planning is a top priority for this committee 
as reflected in the Member briefing that was held Tuesday on 
this issue, and we should encourage and not discourage the CBP 
leadership to engage in this type of transition planning.
    With that said, I do have a letter from Mr. Basham, 
Commissioner Basham, explaining his absence. I would like to 
submit this letter for the record if I may, Mr. Chairman.
    Chairman Thompson. Without objection.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Dent. I will just briefly state something. He did say 
here in his letter, ``While we cannot be there on September 18, 
we stand ready to provide any additional information that would 
be useful to you and your staff. Obviously, Mr. Ahern and I 
will be pleased to answer any additional questions for the 
record.''
    I understand the circumstances that led to the adjournment 
of the meeting last week, which are completely understandable 
given our colleague's memorial service, but I know they do want 
to come back and share their insights with this committee.
    They also say in this letter, too, by the way, that ``We 
are thankful for the congressional support that is helping us 
double the number of Border Patrol agents, increase staffing on 
the northern and southern borders, build new fencing, greatly 
expand our air and marine capabilities''; and I will just 
submit that for the record.
    Again, I just wanted to mention, too, that I had some 
questions for them, as well, which I didn't get to ask last 
week; and I look forward to having that opportunity in the 
future.
    So at this time I would be happy to yield back. Thank you, 
Mr. Chairman.
    Chairman Thompson. Thank you very much. Before you got 
here, we indicated that we tried to negotiate a time when they 
could be here, and we were unsuccessful. There is interest to 
complete the hearing, and because of that, we are going 
forward.
    We will now yield 5 minutes to the gentleman from North 
Carolina, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Let me thank you, gentlemen, for coming back. Let me ask 
each of you the same question, if I may. How much collaboration 
has there been between DHS and other Federal agencies, No. 1, 
to leverage knowledge about the technical, physical 
requirements to secure the border; and what agencies should 
they be working with that may have been--may have had really 
better practices or assets that could be useful in the 
Department's mission?
    Do you understand the question? If each one of you would 
respond to that, please.
    Mr. Stana. Mr. Etheridge, I think it was about 3, 4 years 
ago we did a study of cooperation between the Border Patrol and 
CBP and other land management agencies, whether it is the 
Department of Interior or Bureau of Mines or whatever. What we 
found is that the cooperation could have been improved, 
certainly. They have taken steps since then to improve that 
cooperation and coordination on requirements and sharing of 
information, and even making sure that agents understand what 
they are supposed to do and when to call another agency.
    We have been asked to follow up on that study, and we will 
do that.
    With respect to SBI----
    Mr. Etheridge. Do you have a timeline to do that?
    Mr. Stana. No, we haven't even begun the work. We can keep 
you informed as that work progresses.
    Mr. Etheridge. Will you, please?
    Mr. Stana. With regard to SBI, I know that the CBP--more 
specifically, the Border Patrol--does deal with DEA on drug 
matters, deals with the FBI on terrorism matters; but we 
haven't really heard of problems in that area.
    The bigger concern that we have with SBI in the operational 
sense is between the Border Patrol on the ground and the SBI 
office in Washington and in the field, whether the requirements 
of the Border Patrol are properly communicated and taken into 
account in the design of the system.
    Mr. Hite. Yes, sir. The only--I would add two points to 
that.
    At the hearing last week, Commissioner Basham in fact noted 
that there were probably additional opportunities to engage 
with the Department of Defense that they had yet to take 
advantage of with regard to having or leveraging experience and 
existing technology that the Department has relative to command 
and control capabilities for a given environment.
    In that regard, we do know early on in this program, when 
they were looking at options relative to the system that would 
create the common operating picture, the situational awareness 
view that would be back at the command center, they did look at 
the Department of Defense in terms of what systems were already 
available that could possibly be used as a GOTS, government 
off-the-shelf, capability. So there was some activity there.
    But I would go back to the record in terms of what the 
Commissioner said last week that there were opportunities that 
they still needed to explore.
    Mr. Etheridge. It would seem to me that you do that before 
you get too deep in the bushes.
    Mr. Hite. Yes, sir.
    Mr. Etheridge. So that leads to my second question, and 
that is for the physical fence.
    The fencing we are talking about, how was the original--I 
guess I want to know, why was the original cost estimate so far 
off the current estimates and the actual bidding that really 
came in? It just sort of--it didn't even come close.
    I was in business for a long time. It seems to me this 
really is off the page.
    Let me just finish the rest of it so you can answer it all 
in one.
    I guess my question would be, because of the lack of 
oversight or mismanagement, or a combination thereof? Or were 
other parts of the Government involved in cost discussions? For 
example, did DHS speak with the Army Corps of Engineers 
regarding costs for other on-going projects that might have 
been similar?
    I mean, it just defies one's thinking to be so far off.
    Mr. Stana. You are correct. It was off by a factor of 
almost 100 percent. The estimates came in at about $4 million a 
mile, and it is coming in at about $7.4 million or $7.5 
million.
    Now, some of them are up to $15 million, $20 million a 
mile, the best we can figure.
    Mr. Etheridge. That is like building a highway.
    Mr. Stana. It is. Some of the terrain, though--just in the 
interest of full disclosure, some of the terrain is up and down 
the sides of hills and mountains, and it is just more expensive 
to do it.
    The best we can figure, there are a handful of reasons, 
one, the estimates that we prepared came in for a fence about 
10 feet high, using 9-gauge or--yeah, 9-gauge steel in the 
mesh. The actual one built was 15 feet high, using 4-gauge 
mesh--you know, a thicker mesh. So the materials costs 
increased.
    Concrete costs increased hugely; and I mentioned earlier 
that they couldn't get concrete from Mexico, so they are having 
to truck it in, and that added to the cost.
    Third, they paid a premium or are paying a premium for 
labor. They are on a tight deadline. They want to get this done 
by the end of the year, and they are competing with other 
construction contracts, and so the cost got bid up, the cost of 
labor got bid up.
    Fourth, I just think, all in all----
    Mr. Etheridge. Let me ask a question on that, if I may, on 
bid-up. Do we have a contract? Is this cost-plus, or is it a 
contract?
    Mr. Stana. I believe it is a regular contract.
    It is interesting that you mention that, though, because 
usually there is a sequence to building something like a fence 
or a building or whatever. That is, as you acquire the land and 
then once you have the land, you design the project, then you 
go off for bids on the project.
    Well, here we are not following that order, because in many 
instances we don't have the land yet, or we don't have access 
rights to build near the--so we have let the contracts, and now 
we have to go make sure we get the land, which could force 
other contract modifications.
    The Commissioner used an interesting term last Wednesday 
when he said that they will meet the goal by having contracts 
in place by the end of the year. Well, they could have 
contracts in place for 100 more miles because they have these 
preapproved, and you can just let the contracts and worry about 
the land later. So if the goal was to have it contracted, they 
will meet it by the end of the year; if the goal was to have it 
built, it is going to be a challenge.
    Chairman Thompson. But that does not build a fence, letting 
a contract.
    Mr. Stana. Letting a contract is one of several steps in 
building the fence. But if the goal is to have the fence 
constructed and up by the end of the year, that will be a 
challenge for the Department.
    Chairman Thompson. So what is the advantage of letting a 
contract before you have control of the land?
    Mr. Stana. You will have to ask the Department that. I 
don't know what the advantage there would be, other than it may 
help you meet the time frame that they have set for themselves. 
Not only have they let the contracts and begun to preposition 
materials, they are just waiting for other things, primarily 
land acquisition.
    Chairman Thompson. So the material could sit out there for 
months or even years.
    Mr. Stana. Well, I guess that depends on when they can get 
the land. I don't know if years, but certainly months until the 
courts rule on the properties.
    Chairman Thompson. Well, Mr. Cuellar, isn't that your 
understanding, that there is some real challenges with some of 
the land that is being proposed to build a fence on?
    Mr. Cuellar. Yeah, there are legal challenges. I think what 
they are doing--I think you hit it right on the nail. They 
set--there is a timetable. They know physically they are not 
going to construct it. So to say that they have met the 
deadline, they are going to say we have this out on contract, 
and therefore they are going to argue that they met the 
deadline.
    I really think that is what they are probably doing.
    Mr. Stana. That adds risk, not only program risk, but it 
adds financial risk. Because what you don't know is, the 
contracted price ultimately will be the one that is the final 
project cost.
    Mr. Cuellar. Right.
    If I can just follow up--and I can understand, I don't 
agree with him, just to say, well, we are going to meet the 
deadline by part of it to be let out. Because the question is, 
if you let it out, what is the risk, the financial risk, in the 
future by just saying, ``Let it out,'' because there are going 
to be a lot of delays.
    I really wish that they would just say, ``This is all we 
did in December, and that is it''; and not try to say they met 
the deadline by contracting or letting out the contracts. 
Because otherwise that cost would definitely go up.
    Chairman Thompson. Have you, Mr. Stana, viewed any of the 
contracts that we are discussing right now?
    Mr. Stana. No, we haven't done a contract review per se of 
that. We know that the contracts are in place, but the last 
thing that has to be done is acquiring the land.
    Now, the courts have ruled in favor of DHS in almost every 
instance. I can't think of an instance off the top of my head 
where they haven't. But there is a delay in scheduling court 
actions and having these court decisions come down.
    Chairman Thompson. So these are not fixed price contracts, 
if you have not seen them----
    Mr. Stana. I am not sure whether they are fixed price 
contracts or not. We haven't reviewed the contracting for the 
fence.
    Chairman Thompson. Well, maybe we will get staff to get 
some of the contracts for the committee so we can at least have 
an opportunity to see them.
    Mr. Hite. Mr. Chairman, if I could add to that, I do 
believe it is my understanding that most of these task orders 
are cost-plus contracts.
    Chairman Thompson. Well, that answers the gentleman from 
North Carolina's question then. Thank you.
    We will now hear the gentleman from Pennsylvania, Mr. 
Carney, for 5 minutes.
    Mr. Carney. Thank you, Mr. Chairman. This is for both of 
you.
    Last week Commissioner Basham characterized the 
relationship between DHS and GAO as--a ``partnership'' is the 
term he used. Do you see it that way?
    Mr. Stana. Well, I take the Commissioner's characterization 
as well-meaning. I think ``partnership'' implies a relationship 
that I am not sure would be proper in that we like to keep our 
independence. In that we are, after all, the congressional 
auditors, we like our work to be taken constructively. We like 
our work to be done cooperatively.
    It gets into the issue of access; access has been mixed. 
There have been instances where we get information in a 
reasonable amount of time. There are other times when we get 
information or documents in an unreasonable amount of time.
    For example, it took us 3 weeks to get briefing slides and 
a sign-in sheet from a meeting we had in the Rio Grande 
Valley--3 weeks. We had arrangements with the program office to 
get updates to task orders automatically; we have never seen 
it. There have been updates; they have never provided them. 
That is not indicative of a partnership.
    But we are hoping to have a cooperative relationship. We 
are your eyes and ears on this project.
    Mr. Carney. Exactly, so the oversight piece is a mixed 
picture at best.
    Mr. Stana. I would say the access piece is a mix, access to 
records is mixed.
    Mr. Carney. Mr. Hite, do you concur? Disagree?
    Mr. Hite. I would echo Mr. Stana's remarks and just 
emphasize the fact that other agencies sometimes characterize 
us as ``partners.'' I think they do that with good intentions, 
recognizing the fact that we are all trying to make a program 
successful. But in the end, we have to abide by Government 
auditing standards, which require us to maintain our 
independence.
    So there is technically no ``partnership'' by any 
definition of the word. But we do, as Mr. Stana said, work 
constructively with the agency to try to make the program 
successful.
    But our No. 1 priority is supporting the Congress in its 
oversight of the program and maintaining that independence.
    Mr. Carney. Okay. Well, as we all know, in a few weeks we 
are going to have a new President elected, either Mr. Obama or 
Mr. McCain, and when they take office in January 2009, what 
state will they find border security in? How far progressed is 
it?
    I get the sense that this is probably one of the things on 
their plate that they are fearing the most, actually peeling 
back this page and seeing what is happening on the border 
security--with border security issues. Could you reflect on 
that a little bit?
    Mr. Stana. Well, I would say that there has been a good bit 
of progress made. I mean, we have increased the size of the 
Border Patrol, we have provided new equipment to the Border 
Patrol.
    I know fencing is a controversial subject, but the Border 
Patrol would tell you that fencing has added to their ability 
to control the borders.
    On the other hand, we have these projects, like Project 28, 
which haven't been entirely successful. It provided a 
capability that is limited. Border Patrol appreciates it, but 
it is not what they expected.
    The use of technology is another subject where there have 
been fits and starts. A number of projects exist on the border: 
NorthGuard, BorderNET, SBI. It seems that maintenance is an 
issue. It seems every time we visit one of these projects, they 
seem to be down for whatever reason.
    So I think that there have been improvements, but there is 
certainly still a ways to go.
    Mr. Hite. What I would add to that is, I think one of the 
things that a new administration would need to do, coming in, 
is to get a sense of where are we, where is the baseline as to 
where we are right now, and where is it that we are proposing 
to go in the future--what capabilities, by when, to deliver 
what mission value?
    Let's define that. Let's agree that that is worth the 
investment, and then let's hold ourselves accountable for 
delivering according to some transparent set of commitments.
    Mr. Carney. Are you suggesting that that has not been the 
case?
    Mr. Hite. I am certain that has not been the case on this 
program.
    Mr. Carney. I was afraid that was the answer. Okay, thank 
you, gentlemen. No further questions.
    Chairman Thompson. I would like to say for the record that 
Chairman Carney, who chairs the Oversight Committee, has made 
several trips to the border. He has seen firsthand what is 
going on and brought back his concern to the full committee 
Chair on a number of things happening along the border.
    Mr. Stana, in support of Mr. Carney's question, this 
committee was told that technology is the way to go and that 
the Project 28 approach, as well as other technologies from 
SBInet, would be good.
    Can you just say to the committee that tens of millions 
dollars later how much actual technology is deployed along the 
border, to your knowledge?
    Mr. Stana. Do you mean through the SBI program?
    Chairman Thompson. That is correct.
    Mr. Stana. Well, through SBI we have Project 28, which left 
behind some capability. They provided cameras and radars and a 
common operating picture.
    Chairman Thompson. All right. Well----
    Mr. Stana. You know about Project 28. I don't know if this 
is the direction of your question.
    Chairman Thompson. Yeah, it is the direction. I will let 
you go.
    Mr. Stana. There are some preexisting or parallel projects 
like BorderNET in Douglas. You may have seen that. NorthGuard, 
which is part of P-28--not P-28, SBI, which is a demonstration 
project.
    Then there are these other technology programs that are 
apart from those that have been in place for some time. For 
example, if you have been in Nogales, you have seen the cameras 
along the border there and the control room. ASIS, I think, was 
mentioned last week in the hearing.
    The Department hasn't had a really good track record on 
these technology acquisitions, but the Border Patrol would tell 
you that technology is a very important tool to help them gain 
control of the border. In fact, when we were in El Paso a 
couple weeks back, one of the points they made is with the 
delays of implementing the Secure Border Initiative, it is 
going to push the fielding of technology in El Paso back to 
2011, maybe 2012. In the mean time, they are going have this 
fence where they won't have a camera on it to help them patrol 
the area; and they would like that.
    Chairman Thompson. Well, I guess my point is that if the 
general agreement is that this type technology would be good 
for the border, Mr. Hite, can you, for the committee's sake, 
say, why is it we can't get it implemented in a reasonable 
period of time based on your review of existing approaches?
    Mr. Hite. Yes, sir.
    It is not a technology issue, it is an acquisition 
management issue. Because the way things stand now in terms of 
what hasn't been met all goes back to, well, what was it that 
you intended to do. By when? Was it clearly defined? Were the 
requirements clear for the contractor? Were there adequate 
performance standards in place to hold the contractor 
accountable to? Were you putting in place the discipline 
processes, the rigor along the way to be able to manage this 
thing on a continuous basis, to know when you are getting off 
track so that you can preemptively take corrective action?
    Those are the kinds of things that haven't been done. So it 
is an acquisition management concern.
    Chairman Thompson. Well, I guess--and I will yield to the 
gentleman from Pennsylvania, you know that they have not been 
done, but to this date, has that been corrected?
    Mr. Hite. Our report, which comes out next week, in my 
written statement for this hearing shows that there were a 
number of areas where it has not been done yet. That is not to 
say there aren't aspects of this program where certain types of 
acquisition management controls are, in fact, in place.
    Because there is a whole range of things that you want to 
do, we focused on the extent to which requirements had been 
well-defined and requirements were being properly managed. In 
that arena, we found some serious gaps.
    We also focused on how well they were approaching testing 
of the systems and how well they had structured an effective 
test management program for this; and we found gaps there as 
well.
    So, all in all, there are areas that are serious, that need 
to be improved, where the CBP agrees. They say they are going 
to act on these things; and we look forward to following that 
for the committee to make sure that that, in fact, occurs.
    That is not to say that there aren't a whole range of other 
areas where there are also problems, because one of the things 
I have said in the past on large programs like this, it really 
takes 100 stars to align for the program to be successful. We 
have only looked to a few of those stars, and so there are a 
lot of unknowns associated with the program right now.
    Chairman Thompson. Part of why we do oversight is to try to 
help the process align.
    So as we develop this information, hopefully we can work 
with the Department and our friends to fix it.
    The gentleman from Pennsylvania.
    Mr. Carney. Thank you, Mr. Chairman.
    Just briefly, I guess I got quite concerned last week when 
I think--I believe it was--Mr. Ahern said, well, our big 
problem is, we failed to manage expectations.
    I think the big problem is, they failed to manage the 
project--I mean, a different way to look at this. But the 
problem is, you have to, in fact, be very clear with what you 
are trying to do. I think that they were moving the goalposts 
as we were looking into this issue.
    I mean, is that a fair characterization, do you think?
    Mr. Stana. I think it is fair. If you look at the original 
task order for Project 28, it had very specific standards for 
success: Identifying intruders, plus or minus 95--95 percent of 
the time, plus or minus 5 percent; being able to characterize 
the threats 95 percent of the time, plus or minus 5 percent. 
Project 28 can't do that.
    But if you also look at the task order, the way it is 
worded, it says that the Government will basically evaluate 
their progress on meeting these goals. Well, there is a 
difference between a goal and a performance standard. That is 
why the acceptance of Project 28, while controversial, I 
suppose would be permitted.
    But the issue you raise about managing expectations is an 
interesting one, because when we first began to look at this 
program, Project 28, and SBI more generally, there were higher 
expectations. Maybe they were managed, but they seem to be 
managed downward, and only as the vulnerabilities and the 
challenges of these projects became apparent.
    Mr. Carney. That was my concern. I think as we watched the 
project evolve and then talked about it, they overpromised and 
underdelivered, certainly; and we got concerned. Now I am even 
more concerned that projects like Tucson-1 and Ajo-1 are being 
shelved or put way on the back burner.
    Is that because there is fear that the technology does not 
work? What are the reasons for something like this to occur?
    Mr. Hite. I think it is a recognition on the part of CBP 
that they aren't where they need to be right now, and so they 
recognize that we need to make some improvements. It is better 
to get it right rather than get it early, or on time, and 
wrong. So I think that is why those projects have been moved 
out.
    So I think that is a compliment to them, better late than 
never to recognize what you need to do is to get it right.
    Mr. Carney. I agree. But how open-ended do we leave 
something like this? After all, border security is national 
security, and this is their job.
    Mr. Stana. Well, there is a consequence to this. There are 
a whole other--there are many other pieces to border security 
besides the technology piece. For example, what is the right 
size of the Border Patrol? How much fencing do we use?
    The assumption was that we were going to have the SBInet 
technology in three sectors by the end of this year--Tucson, 
Yuma and El Paso--and that that would sort of lead the way in 
determining how it was going to be used, how the Border Patrol 
doctrine was going to incorporate this technology into everyday 
operations and therefore get a better sense of what it really 
takes.
    With these delays--and maybe these delays are proper and 
appropriate, but with these delays you are pushing out that 
date as to when you are going to, No. 1, gain operational 
control of the border and, No. 2, incorporate technology with 
information and other infrastructure like fencing into a total 
package of border security.
    You are pushing that date out.
    Mr. Carney. I will close with this question: Do we have 
operational control of the border?
    Mr. Stana. How do you define ``operational control''?
    Mr. Carney. How do you define it?
    Mr. Stana. Are we in a position where we will be able to 
detect and classify every individual who crosses the border and 
have a Border Patrol agent or other law enforcement agent on-
site to be able to address that particular crossing or threat?
    Are we at that position today? No.
    We have increased our capabilities significantly from where 
we were 6, 7 years ago.
    Mr. Carney. Okay. Once again, my concern here----
    Chairman Thompson. Do you accept the definition?
    Mr. Carney. I think that would be one we would love to 
have, but I don't think it is realistic. I would like to see 
what the CBP's definition of operational border security is, 
and if they believe that they are meeting that.
    Mr. Stana. Here is their definition of operational or 
affective control: Detect illegal entry, identify and classify 
a threat level associated with it, respond to it, and resolve 
the situation.
    The fact that it is estimated that hundreds of thousands of 
people cross over the border, undetected, illegally every year 
would indicate that we don't have effective control right now.
    Chairman Thompson. I think the point, Mr. Carney, is that 
this Congress has been more than supportive of providing the 
resources that should, within a reasonable period of time--if 
managed properly, would give operational control. I think part 
of the challenge that we have is to make the Department provide 
the management and oversight necessary for that to occur.
    That has been one of our challenges.
    Mr. Carney. My concern, Mr. Chairman, is that the 
definition of ``operational control of the border'' doesn't 
change either.
    Mr. Stana. I think we also have to acknowledge, it is a 
difficult task. There are thousands of miles of wide-open 
spaces, and there are very many hard-working men and women who 
attempt to gain operational control.
    In fact, in some locations we have it. But as far as a 
Nation, do we have operational control of all of our borders? 
No.
    Mr. Carney. Mr. Stana, please understand that our efforts 
in this committee on both sides of the aisle are for those men 
and women. That is our concern.
    Mr. Stana. I understand.
    Mr. Carney. We want to give them the tools to help them get 
that operational control, and we want to give them the tools 
that make them safe and protect them. We want to give them the 
tools that make all of us safer. My frustration in the first 2 
years that I have been here and chairing the Oversight 
Subcommittee is that sometimes I feel that there has been a bit 
of a shell game going on with what is going on at the border 
and the projects; and that is just unacceptable.
    Thank you, Mr. Chairman. No further questions.
    Chairman Thompson. Thank you.
    For the record, Mr. Stana, have you been able to get from 
the Department a border security plan for the southern border?
    Mr. Stana. I don't believe so. I am not sure if the plan 
exists, but--it is in the predecisional stage or whether a 
comprehensive plan doesn't exist.
    Chairman Thompson. Well, we have not been able to get one 
either. I thought maybe you had been more successful than the 
committee.
    I yield to the gentleman from Washington State, Mr. Dicks, 
for 5 minutes.
    Mr. Dicks. Well, I appreciate the Chairman yielding.
    Let me ask you this question: We understood that part of 
the problem here was--on the Department's thought, it could 
just waive all environmental requirements; and then at the end 
they found out that they, in fact, had to--on the technology 
side of the equation, they had to go through the environmental 
permitting process. Now, that would seem to me to be a very 
fundamental area.
    Now I understand, because of that, they are asking for a 
reprogramming of $400 million of this money to be used to build 
the fence instead of its being used for technology. Is that an 
accurate portrayal of the situation?
    Mr. Stana. They had difficulty with the environmental 
assessment process. They didn't leave a lot of time to do that. 
I think it normally takes several months to complete it, and 
they left a matter of weeks to finish it.
    At the end of the day, I think, whereas it may have worked, 
the relationship between DHS and the Department of Interior at 
the local level may have worked well, at headquarters level it 
didn't; it wasn't as close and productive, and there were some 
stops there.
    Now, I will say that that isn't the only reason for the 
delay in pushing out Tucson-1 and Ajo-1 projects into 2009, 
that may have been a contributing factor. But as Randy Hite 
pointed out, there were some procedural delays in making sure 
that things worked right, which also contributed to pushing the 
date out.
    Mr. Dicks. It also sounds--and I have been on the Defense 
Appropriations Subcommittee throughout my entire career. It 
sounds like you didn't have a proper--you know, a plan--you 
know, what is this system supposed to do--and then, you know, a 
timeline for when you are going to have reviews the way the 
military does it.
    Now, the military takes time to do it, but they get it 
done, normally, at the end of the day. In reading through your 
review it just sounds as if a lot of the work that should have 
been done by the Department, the program office, to oversee 
this simply wasn't done. Is that an accurate portrayal?
    Mr. Hite. That is a fair statement, yes.
    Mr. Dicks. Obviously, the contractor in this situation, you 
want them to do as much as you can to work with the program 
office to get the thing done; but it is hard to do if the 
program office is understaffed and doesn't have a clear idea of 
what it wants to achieve. We have these problems in other areas 
of the Government.
    The Department of Homeland Security seems to have a 
terrible problem of being able to do acquisition projects. This 
is not the first time they have had a fundamental flaw.
    I would also mention, just to my colleagues, that as I am 
Chairman of the Interior and Environmental Appropriations 
Subcommittee, I mean, we have some very serious environmental 
issues down there on the border. You have got endangered 
species; you have got a lot of Federal land involved.
    When these people come across--especially the drug dealers 
and gangsters are leaving waste on the land. It is a very 
difficult situation, and the departments don't enough money to 
clean it all up.
    So the environmental issues are real. This is not just the 
Endangered Species Act, which some people don't appreciate; but 
you have serious environmental questions that are not being 
addressed. I think, frankly, that we almost went too far in 
giving waivers on building the fence. Some of these species go 
over and back, across the border; and their survival is also of 
importance.
    So do you think they can get this turned around? I mean, do 
you think--or is it going to take a new administration, new 
people coming in to reinvigorate the process? I mean, is that 
our best hope? I mean, because obviously we are down to the end 
of this administration. I mean, the witnesses aren't here today 
because they are working on transition.
    Mr. Hite. With regard to whether or not I think they can 
get it turned around, with respect to the acquisition concerns 
that we identified in terms of being able to clearly define 
what it is that you want and putting together a meaningful plan 
of how you are going to get there, I would point to the fact 
that CBP has acknowledged the concerns that we raised. We made 
a litany of recommendations to correct that. They agreed with 
the recommendations. They are already moving out to try to 
implement those.
    So as I said in my opening statement, I am cautiously 
optimistic. Going forward, it remains to be seen. As part of 
our work in support of this committee, we will be there to make 
sure it gets done properly.
    Mr. Dicks. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you. Before I recognize the 
gentlelady from Florida, I would like to express the complete 
and full sympathy of every Member of the committee at the loss 
of her husband while we were on break in August; and you have 
our prayers.
    The gentlelady from Florida.
    Ms. Brown-Waite. Thank you very much, Mr. Chairman. I 
missed some meetings in July because we knew the end was near. 
My husband had pancreatic cancer and the doctor was incredibly 
accurate when he told us how long we had. So I, as everyone 
would do, decided that I needed to be with him in July and 
certainly August. He passed away August 19.
    But thank you so much for your thoughts. I apologize for 
not being here earlier. I had some people from Farm Bureau in 
my office from my very district.
    Certainly, CBP has a very difficult job of recruiting and 
retaining the border agents, probably because of the harsh 
nature of the job--the isolated environment, difficult climate, 
and salary as compared to the cost of living in places such as 
San Diego, the San Diego sector, for example.
    Of the new agents that were hired in, let's say, the past 
year, what percentage have already left Border Patrol? Could 
you let us know what the primary retention and recruitment 
tools are that are available to CBP?
    Mr. Stana. I believe the figure is around 25 to 30 percent 
of those hired in the last, maybe, year or 2 have left the 
Border Patrol. I don't have the latest figure, but that is the 
last one that I saw.
    The Border Patrol offers a range of incentives, but it is a 
difficult job, as you pointed out. There are language 
requirements; oftentimes you are in remote locations, sometimes 
very expensive locations.
    But this turnover you are talking about, this churning, has 
consequences to other efforts within the Border Patrol. You 
know, you are placing a stress on the supervisory level to 
constantly train new staff and evaluate new staff. The 
supervisory ratios in the Border Patrol in some sectors are 
very high, and understanding how a new agent works in that 
first 2 years is critical, not only to train people, but to get 
those bad apples out.
    Any time you have a run-up in staff in any agency, you are 
so concentrated on getting a large number of new people in that 
you are going to get people who just don't have the right 
skills or temperament for the job; and it is up to that first-
line supervisor to detect that and get them out before they 
cause harm to, say, an alien or to the agency. That is more 
difficult.
    So this large percentage of turnover has complications up 
and down. It is not just a recruiting problem. It is a training 
problem, it is a supervision problem, and it is a skill 
problem.
    Ms. Brown-Waite. I have been told that the morale is very 
low. On a scale of 1 to 10, how would you rate the morale? Have 
you done--as you go in and you do the studies, have you done 
any studies of morale of the Border Patrol agents?
    Mr. Stana. No, ma'am, I really haven't done a study of the 
morale. I know that periodically OPM does studies of different 
agencies to try to determine things like morale and how people 
feel about their work.
    I know CBP, more broadly, had some morale issues. I don't 
know how much of that was the Border Patrol, whether they 
thought their job was important or whether their pay was 
commensurate with job obligations.
    I think you are raising some good questions, though. I just 
don't have an answer for you.
    Ms. Brown-Waite. In your opinion, do you think that the 
escalating violence between drug cartels in the Mexican border 
cities could spill into the United States, posing an even 
greater threat to U.S. law enforcement and citizens and CBP 
members along the border?
    Mr. Stana. It is interesting, I was just down in El Paso a 
couple or 3 weeks ago, speaking with not only the Border Patrol 
people, but the people at EPIC, the law enforcement center down 
there. That is very much a concern of theirs, and they are 
monitoring that every day.
    One thing you don't want to happen is to have the violence 
in Nuevo Laredo, for example, with the drug cartel, spill over 
the river into Laredo or some of the cross-border towns in 
Arizona and California. It is something that is--it is a 
threat. They are monitoring it, and frankly, it is something 
that they really, really are concerned about.
    Ms. Brown-Waite. Do you think once, you know, perhaps 
starting Operation Jump Start, again having the National Guard 
in there, would help?
    Mr. Stana. The National Guard, as I understand it, did not 
perform a law enforcement role.
    Ms. Brown-Waite. No, they didn't.
    Mr. Stana. They would not bring their weapons and expertise 
to bear to fight drug cartels.
    That is a question I just don't have any information on.
    Ms. Brown-Waite. But they did backup so that those who 
actually are trained could be out in the field. So if we 
brought that back again of having the National Guard there, 
there could be more trained and armed officers out there.
    Mr. Stana. Remember that that Operation Jump Start was 
deployed at a time when the Border Patrol had thousands of 
fewer agents than they have now. So what I don't know is 
whether getting up to the 18,000 agent goal that they expect to 
get to by the end of the year would provide enough officers.
    I understand your point, that anything we can do to put 
people back on-line would be helpful to control that kind of 
cross-border violence. I just don't know whether the 
recruitment and retention and the other issues you raise, taken 
all together, would still leave enough agents to properly 
patrol the border.
    Ms. Brown-Waite. Thank you. I yield back.
    Chairman Thompson. Thank you.
    I want to now recognize the gentleman from New Jersey, Mr. 
Pascrell, for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman. Mr. Chairman thank 
you for bringing us back together again. I am very disappointed 
that the CBP could not be here today to answer the questions 
that we have.
    Mr. Chairman, the bipartisan Partnership for a Secure 
America presented all of us on September 9 a report card on 
national security; and one of the subjects where we did the 
worst in terms of that report card on national security was 
establishing international cooperation.
    I have a quick question, Mr. Stana. Do you think, in your 
review of what is going on there now, that--well, let me 
rephrase the question.
    Do you think that there has been enough international 
cooperation with the countries that are on our borders so that 
we can come up with a viable, as was stated before, and clear 
way of how we are going to protect our borders? Have we 
established concrete relationships with these countries, 
whether it be Mexico, Canada, et cetera, so that we can come to 
a conclusion about how best to protect our borders?
    It goes both ways.
    Mr. Stana. Yeah. I am more familiar with the relationships 
on the northern border, with Canada. They have inter-border 
enforcement teams with the Royal Canadian Mounted Police, CBP 
and others. They share information and intelligence; and they 
even do some operations in the Great Lakes with, I think it is 
called, the Ride Share program--something to that effect--where 
we have agents from one country riding in the patrol boats of 
another.
    It is not to say that everything is perfect or there isn't 
room for further coordination, but there are these mechanisms 
in place in the northern border.
    On the southern border, I don't know that they have the 
degree of cooperation in relationships that they do on the 
northern border, but I do know they have made some inquiries 
and some initiatives to try to improve those.
    Mr. Pascrell. I would like if we could look into that, Mr. 
Chairman. Because it seems to me we can't defend our border if 
we don't have the cooperation of whomever is on the other side 
of that particular border. It would make it much easier.
    The report card concluded--this is bipartisan folks that 
have worked in this area for 30, 40 years--that we are still 
dangerously vulnerable. So we know the seriousness of the 
subject.
    It is my strongly-held belief that border security cannot 
be accomplished by simply erecting a physical barrier or 
relying entirely on technology. Our Nation needs a layered, 
multifaceted approach to the problem.
    I want to make clear that the current inability of the DHS, 
Mr. Chairman, to find a border security solution with clarity, 
as was just pointed out, to define the terms here, a solution 
that actually works, makes it impossible for Congress to enact 
comprehensive immigration reform. I have gone back over the 
dialog on immigration over the past 3 years, 4 years. It is not 
only critical, it is absolutely essential for us to get this 
right; and yet we don't have it right.
    So it has to be clear to all of us that you can't create 
any new programs to bring legal workers, for instance, from 
Mexico into this country if the border isn't really secure and 
workers simply have the option of coming here illegally and 
avoiding whatever paperwork they have to fill out.
    Any comprehensive immigration plan would likely require 
first that the President has to certify that the border is 
indeed secure before the rest of the plan would be initiated. 
At this pace we are going algebraically, we will have such 
change in immigration in another 20 years.
    So let us imagine that Congress passed a comprehensive 
immigration reform tomorrow morning and the President signed 
the bill in the mean time. How long would it take, Mr. Stana, 
how long would it take in your mind before we could certify 
that the border is truly secure?
    Mr. Stana. If you use the criteria that DHS has, you know, 
for the SBI program--and that criteria, again, is being able to 
detect illegal entry, being able to identify and classify the 
threat, being able to respond to any illegal entry and being 
able to resolve the situation--we are not at that point yet and 
it could be some time, it could be years before we get there.
    Mr. Pascrell. Thank you.
    So, Mr. Chairman, more than pounding our chest and rattling 
our swords and providing distractions from our objective, we 
haven't done what we are supposed to do here; and we have let 
the American people down, not only the Department. But, as I 
have said before in other questions and other issues, there has 
to be a degree of accountability. There were people 
responsible, higher up, not so high up for this.
    This shouldn't be a partisan issue. This should be 
something we should all be agreeing on. I don't think Democrats 
can do this any better than Republicans. But, on the other 
hand, it is not done. So we all bear some of the 
responsibility.
    It is critical to defend this country as to what is 
happening on our borders. It goes both ways. The guns that go 
from America to Mexico, no one seems to be really concerned 
about. When we were down in Mexico in our Homeland Security 
trip that we took last year, it would seem to me that that was 
a major concern of the Mexican officials, of how many guns were 
going over the border into Mexico from the United States of 
America. That is part of their homeland security.
    Nobody cares about this. It is only guns. Since we as a 
Government are involved in the trade of such weapons, we just 
either accelerate it or turn our back.
    So on both sides of the border, both sides of the border, 
to the south particularly, we do not have protection that the 
American people deserve. God knows--God is the only entity that 
knows what is coming into this country every day. Because we 
don't know. We pretend to know. We pound our chests. As a 
veteran, we put on our American Legion hats and we are there, 
America, U.S.A. Damn it, 7 years later, we haven't protected 
our borders. That is pretty basic, Mr. Chairman.
    Thank you.
    Chairman Thompson. Thank you.
    I might add, Mr. Pascrell, that some of the milestones and 
timetables you asked for we have been working with the 
appropriators to try to come up with language that would 
encourage the Department that, before we start contracting and 
doing certain things, that some of the things we have heard 
here today, they would be required to do before the money is 
available. So, you know, we don't want to micromanage the 
Department, but in some instances we are left with no other 
choice if we are going to get it done right.
    I will now recognize the gentlelady from California, Ms. 
Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I really, I guess, have two fundamental questions. The 
first is whether the reprogramming that is being suggested--I 
don't know if you know the answer to this--is going to be a 
fatal blow to the high-tech solution that really, ultimately, 
has the--we all know you can't build a physical barrier along 
the entire southern border. I mean, they are remote areas. It 
is not possible to do that. I am mindful that, in addition to 
the environmental damage that was referenced by my colleague 
from Washington, you know, there are areas flooded along the 
southern border because the fence accumulated refuse--and 
Americans got flooded because of the incompetence of the 
Department.
    So the question is, is this reprogramming going to prevent 
SBInet from actually moving forward, in your judgment?
    Mr. Hite. No, ma'am. I don't think it is going to prevent 
it. I actually think at this juncture where things stand it is 
the right course of action to take a strategic pause on SBInet. 
Now whether the reason was because of the need for more money 
to go toward the physical fencing or not, I think it is the 
right thing to do now to make sure that we get this initial 
deployment correct.
    Ms. Lofgren. Let me ask maybe a more fundamental question. 
The Department doesn't meet its deadlines for virtually 
anything, for the US-VISIT, exit, for cybersecurity, for the 
fence, for SBInet, for anything. They can't even answer a 
letter in a timely fashion. So here is the question.
    I actually have a great deal of respect for the head of the 
Border Patrol. I think he is a career guy. He has my respect. 
But his core strength is not technology or construction format 
matter. He is a law enforcement official. Whether the core 
competency of the CBP should be recognized and honored and 
these other things that require a critical path and an 
understanding really ought to be assigned to somebody who has 
that core competency, not the Department of Homeland Security.
    Mr. Hite. But the responsibility for acquiring the 
technology does, in fact, have to rest with the Department. I 
mean, they leverage contractors to help them with the 
engineering, with the development, with the testing. But 
acquisition, which is defining what you want because it is your 
mission, defining it in a way that is going to be 
understandable, you are going to be able to hold a contractor 
to delivering, that is a core competency of the Department.
    Ms. Lofgren. They are not competent at it. Maybe it is 
something they should be competent at, but they have failed 
over and over again.
    Now, maybe new blood, you know, in the next administration 
will fix this, but I remember a couple of years ago when they 
couldn't get a list of critical infrastructure, that we 
actually assigned that task to the national labs who could have 
done it quite promptly. I mean, the Department--I don't think 
we just have to sit here and say this is a Department that 
can't perform. Therefore, these tasks that we want performed 
aren't going to happen.
    Mr. Chairman, I would just suggest that one of the things 
that we will want to do with the new administration is to look 
at the structure of the Department that has performed so poorly 
and see what belongs in it and see what belongs out of it and 
who might actually be able to perform some of these functions 
in a more efficient way.
    Obviously, we can't do that at this hearing. But that is a 
major task and I just--it is very disappointing that the 
Department is so unable to perform the task assigned.
    I would yield back to the Chairman.
    Chairman Thompson. I think both witnesses have already in 
their testimony documented some shortcomings in that area that 
we absolutely as a committee will be tasked to help the 
Department fix.
    One of the things I might add with respect to this $378 
million request--I think it is $370 million--is it $370 million 
or $278 million, the reprogramming--$378 million reprogramming 
request for fencing, Ms. Lofgren, and as you were talking 
about, I am wondering if this is to do work now or to just do 
the task order for work to be performed at a later date. It 
might be that we need to seek further clarification from the 
Department. But, as I understand it, they can't even issue a 
proposed contract unless they have money, right?
    Mr. Stana. They need the obligation authority.
    Chairman Thompson. So that $378 million may not mean that 
work would actually start before the end of this year?
    Mr. Stana. That is correct. Although my understanding is 
that contracts have been let to cover all 670 miles that are in 
the goal for the end of this year. So there are some 
contingency miles where that they might apply new funds to. But 
my understanding is that this $378 million is to go to cover 
the cost increases for the projects already approved.
    Chairman Thompson. Those cost increases are attributed to 
what?
    Mr. Stana. I would say three or four areas. One is is the 
initial estimate, the ROM, was for a fence 10 feet high, 9 
gauge steel. They are doing 15 feet, 4 gauge. So costs are 
going to go up a little bit.
    But the bigger ones are the cost of materials. You know, 
concrete is one that has gone up tremendously. Because, as I 
mentioned earlier, CEMEX is going to sell concrete to fencing 
projects in the United States. And labor costs. They need to 
pay premium labor rates to have labor available to finish the 
fence at the point in time it was promised to be finished.
    Chairman Thompson. I think again most of these contracts 
are cost-plus contracts for the fencing, am I correct?
    Mr. Stana. That I am not clear on. If you will give me a 
minute. I believe that is the case, but we would have to check 
for sure.
    Chairman Thompson. Thank you.
    Now I yield to the gentlelady from Florida.
    Ms. Brown-Waite. I wanted to go back to the National Guard 
issue. Do you think that it would be helpful for this committee 
to have either GAO or the committee staff do some kind of a 
study on the impact on the efficacy of border security when the 
National Guard pulled out?
    Mr. Stana. If you would like, we can talk to your staff 
about that possibility.
    Ms. Brown-Waite. Okay. But do you think in general it would 
be good to know the impact that the National Guard had and the 
result once they pulled out, if there has been any change?
    Mr. Stana. Yeah. What we would do to do this sort of study, 
we would have to contact the Border Patrol and other officials 
who are responsible for border security and discuss the impact 
of the Border Patrol--or the National Guard when they were 
there and what capability was reduced because they left. That 
is what the study I think you would be suggesting would 
involve.
    Ms. Brown-Waite. Yes.
    Mr. Stana. I don't know the answers to those questions 
right now. But if you think that would be important to know, we 
can discuss with you or your staff on how we might do that for 
you.
    Ms. Brown-Waite. Okay. I think it would help the committee 
also to know that, the whole ramification of the fact that the 
National Guard is no longer there.
    Mr. Stana. We would like to work with you; and, of course, 
within GAO's protocol we would need the Ranking Member of a 
committee or subcommittee of jurisdiction to sign onto that. 
But that doesn't seem like there would be much of a problem if 
there is interest on the committee.
    Ms. Brown-Waite. I appreciate that very much. Mr. Chairman, 
I think it would help the entire committee to have that 
knowledge.
    Chairman Thompson. I think you are correct; and to the 
extent that the necessary requests can be made, you will, in 
fact, receive it shortly.
    Ms. Brown-Waite. I appreciate your cooperation.
    The other issue that I want to ask about is the impact of a 
continuing resolution on CBP. Are they going to be able to 
really do their mission if they are just operating under a 
continuing resolution as opposed to having the increased 
funding? As you know, the continuing resolution keeps them at 
this year's funding as opposed to the start of the fiscal year 
being October 1 and not having the increased funding available.
    Mr. Stana. That is a question that I can't answer in 
detail. I know with respect to the SBI program, the fiscal year 
2008 amount was slightly lower than previous years because of 
carryovers and so on. So if they receive the amount in fiscal 
year 2009 as a CR, the same amount they had in 2008, that 
theoretically could present a problem. But I would have to 
defer to, you know, the appropriators as to what the answer is, 
because I haven't seen those numbers.
    Ms. Brown-Waite. I appreciate the gentleman's 
forthrightness; and I yield back the balance of my time, Mr. 
Chairman.
    Chairman Thompson. Thank you.
    I will now recognize the gentleman from Texas, Mr. Green, 
for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman; and I thank the Ranking 
Member as well and the witnesses who have appeared. Like 
others, I regret that other witnesses did not appear.
    Mr. Chairman, we have a number of alphabets, abbreviations 
I would like to deal with today. So as not to create any 
confusion when I deal with these alphabets, I would like to be 
a little bit clear. I want to talk about border security, Mr. 
Chairman. If I may abbreviate, I will simply call it BS.
    It appears that BS started in 1995 with ISIS, which of 
course is the Integrated Surveillance Intelligence System. And 
then the BS moved on to ASI, which was an upgrade of ISIS, 
spent $483 million at that point. The BS moved on 2005 to SBI, 
the Secure Border Initiative, which included personnel and 
fencing. Now the BS includes SBInet, which is an upgrade, I 
suppose, of SBI by adding a technology component.
    I am not sure that we have had a lot of BS, some BS or no 
BS at all. But, clearly, we are dealing with BS; and at some 
point, we have to take a critical look at how much of this BS 
we can stand. You can have border security, and at some point 
we have got to make sure that the security we get is the 
security we can afford. That is what I mean by how much of this 
BS can we stand. Because we are spending a lot of millions of 
dollars on BS, and I am not sure we are getting as much for the 
BS as we are outlaying. Can you tell me, Mr.--is it Stana?
    Mr. Stana. Yes.
    Mr. Green. Since 1995, how much have we spent on BS?
    Mr. Stana. I don't quite know how to answer that because BS 
can mean an awful lot of things.
    Mr. Green. It does. I think you and I are on the page. 
Let's talk about ISIS, ASI, SBI, and SBInet. 1995 to date.
    Mr. Stana. I don't know the answer on ISIS or ASI. I know 
for SBI, so far, $2.7 billion; and there is another $700-and-
some million requested for 2009.
    Mr. Green. Given the money that we have spent, are we--and 
this will be a guesstimate--are we 50 percent there, 60, 70, 
80, 10 percent moving toward border security? How far have we 
moved along the way, given that we have spent $483 million on 
ASI and ISIS, coupled with the $2.7 billion that you called to 
my attention?
    Mr. Stana. I don't have a basis for judging exactly how far 
along we are. I know where we are on the SBInet and where we 
are in tactical infrastructure. On SBInet--and Mr. Hite could 
help me out here--we have Project 28, and it is deliverable. We 
have some plans----
    Mr. Green. Project 28 was accepted conditionally, as I 
understand it, correct?
    Mr. Stana. It was accepted, and it is in operation, 
although not providing the capability that was expected by the 
Border Patrol.
    Mr. Green. Exactly. Okay. Go on.
    Mr. Stana. If you look at Table I in my statement, if you 
don't have it in front of you, we list all the task orders that 
Boeing has received, $933 million of task orders. Project 28 is 
in there. There are steel purchases for fencing in there. There 
are other projects like Tucson-1 and Ajo-1 in there.
    But where we are right now is we have Project 28 in its 
state right now. We have plans and some demonstration projects 
for a COP and for other deployments. We have fencing. We are 
closing in on the goal to get the physical fence, the 670 miles 
that was promised by the end of the year. That is what we have 
right now and other----
    Mr. Green. Let me ask you. What percentage of the fencing 
has been completed?
    Mr. Stana. As of right now?
    Mr. Green. Yes, sir.
    Mr. Stana. There were to be 670 miles finished by the end 
of the year, and as of August we had 341. So we were a little 
over half.
    Mr. Green. About 50 percent plus?
    Chairman Thompson. If the gentleman will yield, we have a 
visual we can put on the screen that would help with some of 
that that Mr. Stana is talking about now. That is some of the 
task orders that have come into question.
    Mr. Green. Mr. Chairman, I regret to inform you that, at 
this age, those numbers are quite small.
    Chairman Thompson. Well, they are quite small, but they are 
quite large, too.
    Mr. Green. They are quite huge numbers in another respect. 
I agree. Approximately 50 percent.
    Now, with reference to the Project 28, while it was 
accepted conditionally, you do agree that it is not fully 
operational?
    Mr. Stana. I would agree that it provides a limited 
capability. It does not provide the capability that was 
advertised in the task order.
    If you have anything else to add?
    Mr. Hite. Just a couple of points. It was accepted 
conditionally. I think there were 53 issues that went along 
with that conditioned acceptance. I believe the vast majority 
of those issues were worked off, so the Government did in fact 
accept the product from Boeing.
    The problem with this was that the performance standards 
associated with P-28 were not concrete and specific enough that 
you could really hold the contractor accountable. So the 
Government was really left with its failure to define with 
specificity what it wanted.
    Mr. Green. I understand.
    Let me just suggest this to you. Is the problem with P-28 
the fact that, if you got a person moving across the area and 
you have some other object, there are times when you get a 
false reading and you are not sure of what you have? Is this 
true? You get false readings with the P-28 technology?
    Mr. Stana. We were out in Tucson in June and asked some of 
the agents who use Project 28 technology if we could accompany 
them in the vehicle, and they said yes. We arranged to go out. 
It took 45 minutes to acquire a signal on Project 28, roughly 
45 minutes. When it was up, it would fade in and out. At one 
point there was a target, for lack of a better term, that was 
on the screen and when the computer went down for that second, 
lost the signal, came back up, the target was gone and no 
longer trained on the target. So those kind of problems existed 
when we were out there, and that is after the Government 
accepted the project.
    Mr. Green. Thank you.
    Mr. Chairman, I just conclude with this. P-28, based on my 
intelligence and what I have read, does not do the thing that 
it was designed to do, which is identify people moving through. 
That has been the real problem with it. False readings are part 
of it.
    But, in summary, we spent a lot of money; and we don't have 
the results that we should have for the money that we have 
spent. That is the bottom line. The question becomes why have 
we not the standards in place such that the product that we 
receive will be what the money we are according requires? That 
is where we are. What is going on such that we can't get the 
product that we are paying for?
    It is sort of a rhetorical question; and, Mr. Chairman, I 
thank you very much for allowing the time.
    Chairman Thompson. Thank you very much.
    We now recognize the gentlelady from the District of 
Columbia, Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I appreciate this hearing, and I am concerned about what 
this hearing is exposing, especially in light of answers 
concerning who gets to do what in the agency in terms of 
winning contracts and the like. Because I really think that is 
quite beside the point. What we have here is an unprecedented 
Federal agency. What we did was to put together agencies that 
Congress never intended to be in the same place after 9/11. 
Each of them had their individual expertise.
    So what we have here when we say the Homeland Security will 
do X, Y, Z, we are really talking about ICE, which is 
immigration, we are talking about airline security, FEMA, 
border control, nuclear protection--I just tried to write 
down--Coast Guard. The only thing that links these functions is 
that we were attacked.
    More importantly, although this has to do with the attack, 
more importantly, these agencies serve us in light of natural 
disasters. This was a very good-faith effort to put agencies 
together and to hope that it melded together. So I am not 
surprised that there would have been difficulties of all kinds.
    When we are talking, however, about the technology, I am 
surprised. Because that is really not the expertise of any one 
of these agencies. It seems to me that if you ask Homeland 
Security to let contracts for everything, whether or not there 
is any hope that they had the expertise in everything, we 
didn't really mean this to be another government. Then I think 
we get into problems.
    So I really have to ask about who should be doing what, and 
I ask about that, by the way, in light of the fact, in part, of 
some experience I have had. Homeland Security in the beginning 
had the right to go and find space for itself. Well, that is 
when it was a select committee. Agencies of the Government 
don't have that authority because they are not in the real 
estate business and they can easily be taken.
    Well, Homeland Security also when they came back to GSA and 
said, for God's sake, what do we do now; and that matter is not 
any longer in their--it is something that they and they alone 
can do. There are very few agencies that have that expertise, 
and it is because probably--if one does, it is because some 
Senator or the other pulled them out for reasons having very 
little to do with our own mission here.
    We just approved, for example, on the committee I chair, 
the construction of some border stations. Now, GSA did that 
because GSA knows about construction and knows about what kinds 
of people to look for. Homeland Security or ICE didn't go out 
and do that.
    So when it comes to--and just reasoning from that analogy, 
and that happened only because, for this particular mission, 
everyone understands whatever you build--and, indeed, GSA is 
building a whole new headquarters and that headquarters is 
going to house at least half a dozen of these agencies. Well, 
nobody said, Homeland Security, because this is the Homeland 
Security Department, you go out and you figure out how to build 
a headquarters. That would be terribly unfair for them and more 
unfair for the taxpayers.
    So somehow the other GSA is going to have to do better at 
what it has never done. It has never built as many buildings at 
one time, essentially a compound.
    So I am concerned at going--something as complex as 
technology, particularly technology that will incorporate a 
number of these agencies--and saying that GSA--I am sorry--
Homeland Security, whoever that is, has the requisite 
expertise--I think there was something in the responses to Ms. 
Lofgren that indicated--it may have been you--one of you. I am 
sorry. Mr. Hite.
    You know, somebody has to say what we need in the contract. 
Well, when I go to buy a home, I tell somebody who knows 
something about what I need, but I don't sit down and do every 
part of buying a home. When GSA headquarters go up, they know 
what they need and, heaven knows, GSA can't build it without 
GSA having the extraordinary input into what happened, but it 
is GSA's responsibility. When you build a courthouse, nobody 
wants to get more involved in that than the judge. But, hey, 
this has to be done by somebody who knows how to build a 
courthouse, not somebody who knows how to sit at a lectern and 
try a case.
    Now, I don't know who in this agency has any expertise. All 
I know is what your GAO report tells me. We are apparently in 
the process of cutting our losses, and that is after almost 
half a billion dollars in installation and maintenance of 
technology at the border.
    So, essentially, out of this I have two questions. I don't 
know why, assuming there is somebody competent in the Federal 
Government, they couldn't subcontract this to somebody who knew 
how to do technology across the board, rather than saying, 
since you are Homeland Security and it is your agency, you do 
it.
    Second, I need to know if Boeing has been the contractor on 
all of these efforts, including the failed efforts up until now 
that have been discussed at this hearing.
    First, what is there that mandates that they not only let 
the contract--or that contract be let for them but they have 
the ultimate supervision and say on the contract? Why is that 
the best way to do it? Is that the way a corporation, for 
example, who is dealing with the bottom line would do it?
    Mr. Hite. Yes, ma'am. There are--with response to your 
first question, there are basically two models you could follow 
in the Federal Government, whether or not the agency that needs 
the technological solution manages the acquisition themselves. 
So they are the acquirer, and they perform that function.
    The other model is you take advantage of an organization 
like GSA. It has a Federal acquisition service that performs 
that function on behalf of Federal agencies, if those agencies 
so choose to alleviate themselves of their acquisition services 
capabilities.
    In this particular case, on a large number of acquisitions, 
departments and agencies decide to manage it themselves. That 
is not to say that some don't seek GSA assistance on this. In 
this particular one, the Department has chosen that they will 
manage the acquisition and they will contract with a systems 
integrator, Boeing, to help them in that regard.
    With respect to your second question, yes, the work that 
has been done on SBInets starting with P-28 has been done 
through Boeing as the prime integrator.
    Ms. Norton. I ask you as a third party in this, given the 
failed efforts, in your professional judgment, based on your 
own investigations, would you advise the Department if you were 
asked to continue with this contractor in light of what has 
happened in the past looking at the performance?
    Mr. Hite. I am sorry. The question is whether I would 
advise them to continue with the existing contract with Boeing?
    Ms. Norton. Boeing technology for the Department.
    Mr. Hite. I am sorry. I am not quite following the 
question.
    Ms. Norton. I prefaced this by saying: Had Boeing been the 
contractor in all of these efforts? I recall your answer was 
yes.
    Mr. Hite. Yes, ma'am.
    Ms. Norton. My question is, as the Department continues to 
do necessary technology, is this contractor, in light of its 
past performance, the best agent for continuing this work?
    Mr. Hite. That is a fair question. They are a little over 2 
years in this contract. It is a 3-year contract with 1 year of 
renewal options on the contract.
    Ms. Norton. They have got to consider that renewal within, 
as you say, 12 months. You have got to know whether to go or 
stop. We are going to be calling you or somebody back here 
after that decision is made, so I am asking before it is made 
if we can be a little proactive here and look at past 
performance.
    I mean, everything else in this world is judged; and then 
say, two-thirds down, one to go, without even knowing what 
would happen, would this be the best contractor to simply 
continue, that simply means renewal, in light of what has 
happened?
    Mr. Hite. Yes, ma'am. That is a fair question.
    I think it is the time to start thinking about that as the 
3-year expiration approaches and you need to look at a number 
of variables in that regard, not the least of which is the 
contractor's performance.
    Ms. Norton. What else in the world would you look at? You 
might look at DHS' performance. My first question----
    Mr. Hite. They are culpable in this as well.
    Ms. Norton. They are culpable in that, and I have--let us 
look at the contractor. Do you think--who is more culpable, DHS 
or Boeing?
    Mr. Hite. I don't have the information to give you an 
answer on that.
    Ms. Norton. We need that information. In my judgment, I 
don't see--frankly, and I regret to see this. I don't see the 
expertise in Boeing or DHS, not based on past performance. I 
don't know how else we can do this, Mr. Chairman. Look at what 
you have done and look at the product. What product?
    Chairman Thompson. Well, I think if the gentlelady will 
yield, it is a 3-year contract that comes up for renewal next 
year. I think you raised some legitimate questions that the 
committee is prepared to pursue based on this study and earlier 
studies.
    Ms. Norton. Well, I appreciate that, Mr. Chairman.
    I want, finally, to say in light of my first question and I 
recognize that--well, first of all, is it not true that DOD 
allows GSA or somebody else to do some of its acquisition? For 
it to take the only agency I know that has real experience 
doing everything. They build--by the way, they have the right 
to build for themselves, and they build housing. We are talking 
now about a mammoth department. They build housing. They do 
most of what agencies do for themselves. They are the United 
States military. But don't they also use GSA for some of their 
acquisition work?
    Mr. Hite. I am sure they do use GSA in some instances. I do 
know that the Department does and takes responsibility for 
acquiring a lot of major programs itself and they are the 
acquisition function.
    Ms. Norton. Could I say I have no jurisdiction over that 
part of GSA, that part of GSA which has to do with the mammoth 
contracting part that they are in charge of; and they get into 
trouble with that sometimes, too. They have had some 
noncompetitive contracts. I mean, they really are in charge of 
it. So I don't speak from any expertise there.
    I know about what they do in building and when they have 
done a fairly competent job in that. Indeed, this committee is 
deeply involved with me and in the process of trying to get 
them a headquarters. So I don't--I would only ask this, that 
you look at whether--since I don't know anything about their 
acquisition and their contract--which, by the way, is by far 
the larger part of GSA. I have no expertise, but I believe that 
you would help the committee if you would look at who the 
possible agents are besides DHS.
    I think, frankly, it is very unfair to say to DHS, because 
we have thrown together everything we think has to do with 
Homeland Security, you now are deemed to have the expertise in 
every part of what they do. That is unfair to them. I think 
they have shown they can't do it. I don't know who should do 
it, but to keep doing what they have been doing just because 
they call themselves DHS is to guarantee that we will have a 
result not much better.
    Thank you very much, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    Let me thank our two witnesses for their understanding and 
cooperation with the committee, especially in coming back to 
this recessed hearing. I am certain there will be some 
questions forwarded to you based on what you have heard here 
this morning; and, to the extent possible, we will ask you to 
respond in as fast a manner as possible.
    Again, I thank both of you. The committee stands adjourned.
    [Whereupon, at 11:41 a.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

   Questions From Chairman Bennie G. Thompson of Mississippi for the 
                    Department of Homeland Security
    Question 1. With respect to the SBInet program, in September GAO 
reported (GAO-08-1086) ineffective testing management, an incomplete 
testing plan, and a lack of component testing.
    What is DHS doing with respect to testing for Tucson-1 and Ajo-1 to 
avoid the problems that affected Project 28?
    Answer. As a part of lessons learned from Project 28, U.S. Customs 
and Border Protection (CBP) now has a Systems Integration Lab (SIL) in 
Huntsville, Alabama and a Field Test Lab in Playas, New Mexico. The 
Playas Field Test Lab provides the opportunity to conduct testing in a 
representative operational environment thereby enabling formal 
Government qualification testing prior to deploying the system to the 
TUS-1 and AJO-1 project areas. The System Integration and System 
Qualification tests that are now being completed prior to deployment 
are a change and improvement over the Project 28 test process, which 
will significantly reduce risk of system problems post-deployment.
    The following types of testing are conducted prior to and post-
deployment:
Testing Conducted Prior to Deployment
  <bullet> CQT--Component Qualification Testing: Component 
        qualification testing is performed to verify/evaluate the 
        required performance of components that have not been otherwise 
        addressed by the vendor's certificate of compliance.
  <bullet> SIT--System Integration Testing: System integration testing 
        performance in a controlled environment is a continuation of 
        the integration test process to identify functional, interface 
        and performance anomalies to be resolved or mitigated prior to 
        integrating with the next subsystem.
  <bullet> SQT--System Qualification Testing: SQT is conducted to 
        verify that the design being tested is compliant with the 
        requirements of the system as defined in the appropriate Block 
        A-level specification. Testing is conducted on a production 
        representative system.
Testing Conducted Post Deployment
  <bullet> SAT--System Acceptance Testing: A system acceptance test is 
        conducted to verify the installed system as built is as 
        designed.
  <bullet> FQT and IV&V--Software Functional Qualification Testing, and 
        Independent Verification and Validation: As part of the 
        developmental testing process, functional qualification testing 
        (FQT) is conducted to satisfy requirements per the System 
        Requirement Specification (SRS) and is performed on production 
        representative components that are software intensive.
    Independent Verification and Validation (IV&V) of this software is 
planned to provide services, consistent with IEEE Standard 1012-2004, 
IEEE Standard for Software Verification and Validation, will ensure 
that SBInet software products, and services meet CBP standards and 
SBInet requirements. This includes all aspects of the project 
lifecycle, as directed by CBP.
    Question 2. We understand a process called ``Rapid Application 
Development/Joint Application Development (RAD/JAD)'' is being used to 
facilitate interchange among Border Patrol agents, Office of Field 
Operations officers, and other ``super users.''
    Please provide a list of the RAD/JAD sessions that have been 
conducted and an explanation of how these sessions are improving the 
SBInet program.
    Answer. The formal name of the process is Rapid Application 
Development/Joint Application Design. The RAD/JAD process refers to the 
practice of producing a rapid prototype (RAD) which is then presented 
to users in a joint session (JAD) to elicit actual end-user response to 
design issues with the prospective system design.
    We have conducted three RAD/JAD sessions. The dates and locations 
for these RAD/JAD sessions are listed below.
    1. January 23-24, 2008--Mesa, Arizona
    2. February 12-13, 2008--Mesa, Arizona
    3. June 10-11, 2008--Crystal City, Virginia
    These sessions improve the SBInet Program by providing the Border 
Patrol agents the opportunity to participate in the software design and 
development process. Border Patrol agent participation during the JAD 
sessions not only captures the experience of the agents in the field, 
but it also improves end-user acceptance of the system as the end-users 
have played a key role in defining and refining the system design. The 
small teams simplify the decisionmaking process. The design feedback is 
immediate, interactive, and the changes are made with the agent present 
to witness and agree with the changes. During the three RAD/JAD 
sessions, Border Patrol agents provided 176 user comments, which were 
included in C3I COP software development.
    Question 3. While many border security legislative proposals call 
for additional fencing and tactical infrastructure, very few consider 
the long-term obligations for maintenance and repair.
    What is the Department's plan for repairing and maintaining border 
fencing and vehicle barriers that have been constructed or will be 
constructed?
    Has the Department calculated the costs associated with upkeep of 
the nearly 700 miles of fencing that the administration is proposing to 
have constructed or under contract by the end of the year? If so, what 
are those costs?
    Answer. Currently, there are fence maintenance and repair contracts 
in four Border Patrol Sectors: El Centro, Yuma, Tucson and El Paso. 
These are the sectors that have both the preponderance of current 
fencing and the greatest need for contract maintenance coverage at this 
time. The contracts, administered and managed by the U.S. Army Corps of 
Engineers (USACE), cover maintenance and repair of both legacy and 
newly constructed pedestrian and vehicle fence under the PF225 and 
VF300 programs, and have option periods that can extend maintenance 
service coverage through September 30, 2009, if needed.
    The current USACE fence maintenance contracts are only intended to 
be an interim solution. The SBI Tactical Infrastructure (TI) division 
is aggressively pursuing a long-term solution by planning to award a 
Comprehensive Tactical Infrastructure Maintenance and Repair contract 
in the July 2009 time frame. This contract will cover maintenance and 
repair of all types of TI, including fencing, and will provide coverage 
to all nine Southwest Border Patrol Sectors.
    CBP has an initial recurring base budget of $75 million per year in 
the BSFIT appropriation for tactical infrastructure maintenance and 
repair.
    Question 4. DHS's push to complete many of SBI's infrastructure 
projects by December 31, 2008, appears to have contributed to 
escalating costs and the planning and documentation problems described 
by GAO.
    Is there a change in the Department's authority to construct 
fencing after December 31, 2008?
    What are the Department's plans for fencing after December 31, 
2008?
    Answer. The most significant factors contributing to fence cost 
increases are the rising cost of steel and cement and limited 
construction labor in southwest Texas, rather than the compressed 
schedule required to meet DHS's goals.
    The Secure Fence Act of 2006 mandated the Secretary of Homeland 
Security achieve and maintain operational control of the border. 8 
U.S.C.  1701 note. In addition, Section 102 of the Illegal Immigration 
Reform and Immigrant Responsibility Act, as amended (IIRIRA), requires 
that the Secretary take such actions as may be necessary to install 
additional physical barriers and roads in the vicinity of the United 
States border to deter illegal crossings in areas of high illegal entry 
into the United States. 8 U.S.C.  1103 note. Section 102 of IIRIRA 
further requires that, in carrying out this mandate, the Secretary 
identify certain priority miles where fencing would be most practical 
and effective in deterring smugglers and aliens attempting to gain 
illegal entry into the United States and complete construction by the 
end of December 2008.
    There are currently no plans to construct additional fence beyond 
the current goals. However, Border Patrol will continue to reassess its 
operational requirements including the determination of any additional 
fencing requirements in 2009 and beyond.
    Question 5. In September 2008--more than 2 years after the SBInet 
program was launched--the Secure Border Initiative program office held 
a meeting to develop the Secure Border Initiative's mission, visionary 
goals and objectives, and core values.
    How do you explain the 2-year delay in developing these principles?
    Answer. There was not a 2-year delay in developing SBI's goals and 
objectives. The September 2008 effort was conducted as part of the CBP 
strategic plan framework which is expected to be conducted as part of 
the annual planning cycle. Each CBP senior executive level office is 
required to develop an office strategic implementation plan which will 
be used to implement CBP's 2008-2013 Strategic Plan. While some 
elements such as the core values had not previously been memorialized 
by the program, the September manager's meeting was to refine the 
program's mission, vision, goals, and objectives and to ensure 
alignment with the agency's goals.
 Questions From Chairman Bennie G. Thompson of Mississippi for Richard 
      Stana, Director, Homeland Security and Justice, Government 
                         Accountability Office
    Question 1. GAO has set forth a number of reasons SBInet is at risk 
of failing to meet user needs and operational requirements or 
performing as intended, including ambiguous schedules, lack of clear 
definitions and baselines, and ineffective testing.
    How responsible is the Secure Border Initiative Program Office for 
the deficiencies discussed in your reports?
    How would you evaluate Boeing's performance?
    Answer. Response was not received at the time of publication.
    Question 2. A number of factors are cited to explain the rise in 
fencing construction costs along the southwest border, including labor 
shortages, increases in material and transportation costs, and a 
compressed timeline.
    Do you believe that any of these cost increases were foreseeable or 
could have been incorporated into a planning document?
    Will these cost increases make it more difficult to predict the 
life-cycle costs for the fence? If so, how?
    Answer. Response was not received at the time of publication.
    Question 3. As of August 1, 2008, the SBI Program Office reported 
having a total of 293 employees, which is well short of its staffing 
goal of 470 employees. Furthermore, of the employees on board, 164 are 
contractors and only 126 are Government employees.
    What are the risks involved in the majority of employees overseeing 
a complex program such as SBInet being contract rather than Government 
employees?
    How have those risks affected the program?
    Answer. Response was not received at the time of publication.
Questions From Chairman Bennie G. Thompson of Mississippi for Randolph 
    C. Hite, Director, IT Architecture & Systems Issues, Government 
                         Accountability Office
    Question 1. GAO has set forth a number of reasons SBInet is at risk 
of failing to meet user needs and operational requirements or 
performing as intended, including ambiguous schedules, lack of clear 
definitions and baselines, and ineffective testing.
    How responsible is the Secure Border Initiative Program Office for 
the deficiencies discussed in your reports?
    How would you evaluate Boeing's performance?
    Answer. Response was not received at the time of publication.
    Question 2. A number of factors are cited to explain the rise in 
fencing construction costs along the southwest border, including labor 
shortages, increases in material and transportation costs, and a 
compressed timeline.
    Do you believe that any of these cost increases were foreseeable or 
could have been incorporated into a planning document?
    Will these cost increases make it more difficult to predict the 
life-cycle costs for the fence? If so, how?
    Answer. Response was not received at the time of publication.
    Question 3. As of August 1, 2008, the SBI Program Office reported 
having a total of 293 employees, which is well short of its staffing 
goal of 470 employees. Furthermore, of the employees on board, 164 are 
contractors and only 126 are Government employees.
    What are the risks involved in the majority of employees overseeing 
a complex program such as SBInet being contract rather than Government 
employees?
    How have those risks affected the program?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
